<html>
<title> - IMPLICATIONS OF A NUCLEAR AGREEMENT WITH IRAN (PART III)</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                  IMPLICATIONS OF A NUCLEAR AGREEMENT WITH 
                             IRAN (PART III)

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 23, 2015

                               __________

                           Serial No. 114-81

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 __________
                                 
                     U.S. GOVERNMENT PUBLISHING OFFICE                     
95-636PDF                 WASHINGTON : 2015                     
_________________________________________________________________________________

For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5433243b14372127203c3138247a373b397a">[email&#160;protected]</a>  


                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York<greek-l>
TOM EMMER, MinnesotaUntil 5/18/
    15 deg.
DANIEL DONOVAN, New York<greek-l>As 
    of 5/19/15 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Robert Joseph, Ph.D., senior scholar, National 
  Institute for Public Policy (former Under Secretary of State 
  for Arms Control and International Security)...................     4
Mr. Mark Dubowitz, executive director, Foundation for the Defense 
  of Democracies.................................................    15
Mr. Ilan Goldenberg, senior fellow and director, Middle East 
  Security Program, Center for a New American Security...........    49

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Robert Joseph, Ph.D.: Prepared statement...........     7
Mr. Mark Dubowitz: Prepared statement............................    18
Mr. Ilan Goldenberg: Prepared statement..........................    51

                                APPENDIX

Hearing notice...................................................   100
Hearing minutes..................................................   101
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........   103


        IMPLICATIONS OF A NUCLEAR AGREEMENT WITH IRAN (PART III)

                              ----------                              


                        THURSDAY, JULY 23, 2015

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 9 o'clock a.m., 
in room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing will come to order.
    This morning the committee continues to examine the nuclear 
agreement that the Obama administration has arranged with Iran, 
and we have a 60-day congressional review period.
    Yesterday, Members of the House attended a closed briefing 
with Secretary Kerry on this very consequential agreement. And 
we will begin to hear the case publicly today as Secretary 
Kerry testifies before the Senate. Myself and Mr. Engel led the 
briefing yesterday in closed session with the House with 
Secretary Kerry, but he will appear before this committee next 
week.
    What is clear from yesterday's briefing--and clear from 
reading the testimony of our witnesses today--is that the 
administration has its work cut out making one particular case 
to this body, and that is, is this in our long-term national 
security interest? All of us want a verifiable and a lasting 
agreement, and that is what we are looking at.
    But are the temporary constraints on Iran's nuclear 
program, the 10-plus years' constraints, worth the price of 
permanent sanctions relief? And if Iran does cheat--they have, 
by the way, cheated on every agreement that I know of that they 
have made in the past--if they do, could sanctions developed 
over years be put quickly back in place?
    As we will hear from one sanctions expert today, this deal 
eviscerates the sanctions web that was putting intense pressure 
on the regime up until the interim agreement when we lifted 
those sanctions and they began to get $700 million a year. 
Virtually all economic, financial, and energy sanctions under 
this agreement now disappear. This includes not only sanctions 
on Iran's nuclear program, but key sanctions on the bad banks 
that have supported Iran's terrorism and ballistic missile 
development.
    In return? Iran is not required to dismantle key bomb-
making technology. It is permitted a vast enrichment capacity, 
and it is allowed to continue its research and its development 
to gain an industrialized nuclear program, once parts of this 
agreement begin to expire in as little as 10 years. And just to 
quote the President on this, he said of his own agreement, ``In 
year 13, 14, 15, Iran's breakout times would have shrunk almost 
down to zero.''
    And with tens of billions in near instant sanctions relief, 
it defies logic to think that somehow this money will not 
bolster Iran's worldwide campaign of terror. With this 
agreement, the head of Iran's elite Quds Force, responsible, by 
the way, for the death of hundreds of American troops, this 
individual gets removed from a key sanctions list. The Iranian 
Revolutionary Guard Corps under this agreement is a winner. 
Hamas will be able to rebuild its tunnels faster, and Hezbollah 
will get more powerful weapons. And you have all seen in the 
last month reporting on Iran's commitment to both of those 
institutions, to resupply rockets, missiles, special precision 
guidance for Hezbollah missiles, and its commitment to rebuild 
the tunnels under Israel. So it is no wonder that Israelis 
left, right, and center oppose this agreement.
    Even more troubling to us here in the United States is that 
Iran--with the backing of Russia--won an 11th hour concession 
to remove international restrictions on its missile program in 
8 years, and conventional arms in 5. Of course Russia doesn't 
care--they will be making hundreds of millions of dollars in 
arms sales--and the missiles are not going to be aimed at 
Moscow. What the Russians have is the capacity to sell to the 
Iranians--and this is what they want to do--targeting 
information, frankly. And as the Secretary of Defense just 
testified, ``The `I' in I.C.B.M. stands for intercontinental, . 
. . which means flying from Iran to the United States.'' He 
said that is why we do not want that kind of capacity to be 
transferred. Countries build I.C.B.M.s for one reason, and that 
is to deliver nuclear weapons.
    At the same time that the restrictions on Iran's missile 
program come off, so do sanctions on the Iranian scientists 
involved in their bomb work. This of course is a deadly 
combination. ``Iran's Oppenheimer'' gets a reprieve. A German 
citizen involved in the A.Q. Khan network has his sanctions 
lifted. It is difficult to see how amnesty to nuclear 
proliferators helps us.
    In our hearing last week, many members expressed concerns 
about the adequacy of the inspections allowed under this 
agreement. The administration settled for a 24-day process, but 
this week a former top international inspector expressed great 
skepticism that this would give inspectors what they need. And 
as a former CIA director testified to us last week,

        ``Our national technical means won't be sufficient for 
        verifying this agreement. Without an invasive 
        inspection regime, I would not tell you we will know 
        enough to give you sufficient warning. So that really 
        puts the weight of effort on the IAEA's ability to go 
        anywhere at any time.''

    I now turn to the ranking member for any opening statement 
he may have.
    Mr. Engel. Well, thank you. Thank you, Mr. Chairman. Thank 
you for calling today's hearing, and thank you for your steady 
leadership of this committee.
    Welcome to our witnesses. Congress established the 60-day 
review period, so that we could take the necessary time to 
thoroughly assess the deal on Iran's nuclear program. It is 
important that we get input from a range of voices, and we are 
grateful for your time. So thank you for coming to testify here 
this morning.
    We have now had a few days to look at this deal. We have 
heard from Secretary Kerry, Secretary Lew, and Secretary Moniz 
behind closed doors yesterday. Next week we will hear from them 
again right here in this committee. And, obviously, this is a 
very complex agreement. It is possibly the most important issue 
some of us will ever deal with as Members of Congress. It 
demands close analysis and informed deliberation.
    While I am still reviewing the agreement, I must say I do 
have some serious questions and concerns about certain aspects 
of the deal, and I am going to get right to them.
    First of all, I would like to know more about access to 
undeclared sites. The administration has assured us that no 
site is off limits for the inspectors. That is a good thing, 
but inspectors are unlikely to have on demand access to 
undeclared sites. Iran can take 14 days to comply with an IAEA 
request for access. That is problematic.
    Suppose after that Iran still blocks the way. Members of 
the Joint Commission could take another 7 days to resolve the 
IAEA's concerns. Iran then has 3 more days to provide access. 
And if Iran continues to say no, another month could go by 
while the dispute resolution mechanisms run their course. My 
concern is that Iran could use that time period to sanitize 
sites and avoid detection if they are breaking the rules.
    Secondly, I would like to look at the arms embargo and 
ballistic missile sanctions. For months and months, we were 
told these programs were off the table. But under the 
agreement, the embargo will be lifted in a few years. To me, 
that seems like throwing fuel on the fire. If the deal goes 
forward, we need to think long and hard about what steps we can 
take to prevent Iran from causing even more trouble in the 
region once these restrictions are lifted.
    On the topic of sanctions relief, I am concerned about what 
Iran will do when sanctions are phased out and the spigot is 
turned back on. Iran is obviously a bad actor. This is a regime 
that orchestrates coups, supports terrorist groups, violates 
the human rights of its own people, and projects instability 
and violence across its neighborhood.
    Iran may use these new resources, tens of billions of 
dollars, to improve the lives of the Iranian people. But I am 
willing to bet such programs won't come at the expense of 
Hezbollah, Shiia militias, Hamas, or the Assad regime. How can 
the United States help mobilize an international effort to stem 
the flow of resources to Iran's violent and dangerous allies?
    Next, I am concerned about what happens when the research 
and development ban is lifted. For 8 years, Iran is limited in 
its development of advanced centrifuges. Without these limits, 
Iran could quickly reduce its breakout time or develop a covert 
program. But after year 8, Iran can quickly move toward the, 
and I quote, ``next stage of its enrichment activities.'' After 
that part of the deal expires, is there anything we could do to 
prevent Iran from making rapid progress on its nuclear 
technology?
    Finally, I have a fundamental concern that 15 years from 
now Iran will essentially be off the hook. If they choose, 
Iran's leaders could produce weapons grade highly enriched 
uranium without any limitation, and they can do so faster than 
they could before with more advanced centrifuges.
    What can we do to ensure that we just don't find ourselves 
in the same place we are today in the year 2030? Because the 
truth is, after 15 years, Iran is legitimized as a threshold 
state. After year 15, there are no restrictions on producing 
highly enriched uranium. That is troublesome.
    As we consider these issues, and people will say, ``Well, 
what this does is it doesn't prevent Iran from having a nuclear 
weapon; it just postpones it.'' That is trouble for me.
    As we consider these issues, we must ask ourselves an 
important question as well to be fair. What is the alternative 
to this specific deal? If this deal doesn't go forward, can our 
sanctions regime and the P5+1 coalition hold? Would renewed 
pressure bring the Iranians back to the table if this deal 
fails? Would new sanctions have to be coupled with military 
action? I hope as our witnesses testify today they bear that 
context in mind.
    So I look forward to hearing from all of you, and I thank 
you again for your testimony and your time, and I yield back, 
Mr. Chairman.
    Chairman Royce. Thank you, Mr. Engel.
    This morning we are pleased to be joined by a distinguished 
panel. Ambassador Robert Joseph is a senior scholar at the 
National Institute for Public Policy. Previously, Ambassador 
Joseph served as the Under Secretary of State for Arms Control 
and International Security at the Department of State.
    Mr. Mark Dubowitz is the executive director at the 
Foundation for the Defense of Democracies. He is the author of 
15 studies examining economic sanctions.
    Mr. Ilan Goldenberg is a senior fellow and director of the 
Middle East Security Program at the Center for New American 
Security, and previously Mr. Goldenberg served as the Chief of 
Staff to the Special Envoy for Israeli-Palestinian Negotiations 
at the Department of State.
    So, without objection, the witnesses' full prepared 
statements are part of the record, and members will have 5 
calendar days to submit statements or questions or any 
extraneous materials for the record here.
    And, Ambassador Joseph, please summarize your remarks.

    STATEMENT OF THE HONORABLE ROBERT JOSEPH, PH.D., SENIOR 
  SCHOLAR, NATIONAL INSTITUTE FOR PUBLIC POLICY (FORMER UNDER 
SECRETARY OF STATE FOR ARMS CONTROL AND INTERNATIONAL SECURITY)

    Mr. Joseph. Good morning, Chairman Royce, Congressman 
Engel, other distinguished members. Thank you for the 
invitation to testify this morning before the committee on the 
nuclear agreement with Iran.
    It is a true privilege for me to be able to provide my 
views and recommendations. In my prepared statement, I identify 
what I call five fatal flaws to the agreement. Ineffective 
verification that will not detect and will not deter Iran from 
cheating at suspect sites. Providing Iran with a path to 
nuclear weapons, not just enrichment, but also plutonium. The 
only commitment that Iran has is not to reprocess plutonium for 
15 years. After that, if it decides to do so, it can. Third, 
busting the sanctions regime. Fourth, failing to prevent 
breakout. And, fifth, failing to limit Iran's ballistic missile 
force.
    I also identify four strategic consequences--more 
proliferation in the region; undermining the international 
nonproliferation regime; enabling a more capable, aggressive, 
and repressive Iranian regime; and increasing, not decreasing, 
prospects for conflict and war in the region.
    Given the profound national security implications for the 
United States and our friends and allies, I believe this is 
truly a historic moment. And at this moment, I don't think one 
can overstate the importance of the congressional review and 
action on the agreement.
    And here I would make four recommendations for your 
consideration. First, Congress should vote on the agreement and 
reject it if it decides that it is a bad agreement. And I think 
the metrics are very clear for deciding whether it is good or 
bad. Is it effectively verifiable? Does the agreement deny Iran 
a nuclear weapons capability? Does the agreement, following the 
expiration of the constraints placed on Iran, prevent Tehran 
from building a nuclear weapon in a short period of time? And 
is there a meaningful, phased relief of sanctions? And are 
there guaranteed snapback provisions?
    Because the answers to all of these questions in my 
assessment is no, I think it is important for Congress to 
reject the agreement and in its place insist on a return to the 
negotiating table to seek an outcome that meets U.S. national 
security goals.
    Second, Congress should, to the extent that it can, with 
regard to congressionally imposed sanctions, tie incremental 
relief to the fulfillment of Iran's commitments.
    Third, if the agreement moves forward, Congress should make 
clear that any cheating will result in the immediate 
termination of the agreement. We know that Iran will cheat. 
Unfortunately, it appears that the Obama administration may 
well seek to explain away non-compliant behavior as it has 
reportedly done with Iran's failure to meet its obligations 
under the initial joint plan of action.
    For this reason, I would recommend that Congress establish 
a Team B of outside, non-partisan experts, with access to the 
highest levels of intelligence to assess Iran's compliance with 
all provisions of the agreement.
    And, fourth, Congress should move forward with funding to 
expand missile defense, both in the region and against the 
emerging Iranian nuclear armed I.C.B.M. class missile threat.
    To conclude, I have often heard the argument that despite 
its many flaws, we should go along with this agreement, because 
it is the best that we can do, and because it is as good or 
better than previous agreements. But based on my experience, in 
one case as head of the negotiations with Libya over its 
nuclear weapons program, I know this is not the best that we 
can do.
    I think that Libya does demonstrate that we can do a lot 
better. With Libya, we demanded unfettered, anywhere, anytime 
access to all sites. When we said we wanted to go somewhere, 
the Libyans took us there, without delay and without 
obstruction. And we removed the program by sending over a ship, 
by loading up hundreds of metric tons of nuclear equipment, and 
we also loaded up their longer range ballistic missiles on the 
same vessel, and we sailed it back home. And that was the end 
of the Libyan nuclear program.
    Now, I am not comparing Libya and Iran. Iran is different 
from Libya. Iran is different from North Korea. All of these 
cases are different and in some ways unique. But I think what 
Libya tells us, at least what it tells me, is that we need to 
approach negotiations with these types of rogue regimes using 
all tools available. This is not a choice between diplomacy or 
the use of force, or diplomacy or economic sanctions. We need 
to integrate these tools to support our negotiations, to put 
pressure on the other regime, to achieve the successful outcome 
of diplomacy.
    In the talks with Iran, we violated every rule of good 
negotiating practice. This doesn't mean that it will be easy or 
cost- or risk-free to reject a bad deal with Iran. There are no 
cost- or risk-free alternatives. But the costs and risks of 
accepting this agreement far outweigh the alternatives of going 
back to the negotiating table.
    Certainly, Russia will criticize us. It will criticize us 
as it continues its aggression against Ukraine. Certainly, 
China will criticize us for doing so, as it continues its own 
aggressive activities in the South China Sea. Even some of our 
allies will criticize us, but other allies, including Israel 
and the Arab States, will cheer us, some in private, some in 
public.
    And with American leadership in close consultations, I am 
confident we can turn this around. At the end of the day, this 
is not about a popularity contest. It is about our national 
security.
    Thank you very much.
    [The prepared statement of Mr. Joseph follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Chairman Royce. Thank you very much, Ambassador.
    Mark.

STATEMENT OF MR. MARK DUBOWITZ, EXECUTIVE DIRECTOR, FOUNDATION 
                 FOR THE DEFENSE OF DEMOCRACIES

    Mr. Dubowitz. Chairman Royce, Ranking Member Engel, members 
of this committee, on behalf of FDD and its Center on Sanctions 
and Illicit Finance, thank you very much for giving me the 
opportunity to testify. I am going to spend most of my 
testimony on the issue of alternatives and alternative 
scenarios, but I want to just reiterate that this is a deeply 
flawed agreement, that provides Iran with multiple pathways, 
patient pathways, to a nuclear weapon over the next decade to 
decade and a half.
    Thanks to sunset provisions, a fundamental flaw of this 
agreement, Iran must simply abide by the agreement to emerge as 
a threshold nuclear power. Ambassador Joseph has said, at the 
end of this, it is an industrial sized enrichment program. It 
is near zero breakout. They have an easier clandestine sneakout 
pathway and an advanced ballistic missile program, including 
I.C.B.M.s.
    The sanctions regime, the economic sanctions regime, is 
being dismantled while Iran's nuclear program is not. Iran will 
have hundreds of billions of dollars in sanctions relief, and 
it will use it to immunize its economy against future economic 
pressure.
    One of the biggest problems of the deal is it grants Iran a 
nuclear snapback. The administration assures us that sanctions 
can be reconstituted, even under non-nuclear sanctions like 
terrorism. However, this final agreement actually explicitly 
acknowledges that Iran would walk away from the agreement if 
new sanctions are imposed, a nuclear snapback.
    This provides Iran an insurance policy, even in the case of 
severe violations, and certainly in the case of small to medium 
sized violations, and gives Iran a powerful tool to stonewall 
the IAEA, undermine the dispute resolution mechanism, and deter 
U.N, EU, and U.S. snapbacks. Mr. Chairman, those are the 
problems. A revised deal is a solution.
    Now, President Obama has repeatedly said no deal is better 
than a bad deal. Mr. Chairman, this is a bad deal. It 
undermines the use of economic leverage. It leaves military 
force as the only option in the future to stop Iran's nuclear 
weapons development.
    So what are the alternatives? Well, the President clearly 
had a Plan B in mind during the negotiations or he would not 
have threatened to walk away from the table if Iran didn't 
agree to certain terms. Indeed, no responsible President would 
enter into negotiations, especially over something as critical 
to our national security, without an alternative. That 
alternative still exists--rejecting this deal.
    Now, I want to go through three likely rejection scenarios. 
None are good. Each can be managed. Scenario Number 1 I call 
the Iranian faithful compliance scenario. In this case, after 
Congress rejects the deal, Iran decides to faithfully implement 
its commitments. It triggers U.N. and EU sanctions relief.
    Now, in this case, the President has two options. First, he 
can rebuff Congress, and he actually can wield his executive 
authority to neutralize the Corker-Cardin statutory sanctions 
block and move ahead with the deal. Or, second, he can persuade 
the Europeans to join the U.S. in demanding that key parts of 
the agreement be renegotiated on better terms, leveraging the 
power of U.S. secondary sanctions to keep companies and banks 
out of Iran.
    Scenario 2 is called the Iranian walkaway scenario. In this 
case, Congress rejects the deal. Iran abandons its commitments. 
Now, if past is prologue, Iran will escalate its nuclear 
program, but it will do so incrementally, not massively, to 
avoid crippling economic sanctions or U.S. military strikes.
    In this scenario, the President could use the power of 
secondary sanctions to persuade the Europeans to join a U.S.-
led effort to isolate Iran again. EU sanctions would likely 
hold or, at a minimum, European companies and banks would be 
reluctant to reenter Iran.
    Now, the administration has said in this scenario $100 
billion would go back to Iran. But let us clarify this. That 
money is being held in China, India, Japan, South Korea, and 
Turkey, and they are unlikely to release the $100 billion in 
oil escrow funds for fear of U.S. sanctions, but also because 
those sanctions require Iran to spend the funds on goods from 
those countries. This is a boon to their exports. Why would 
they release the funds so that Iran can go take that money and 
spend it elsewhere?
    Scenario 3, which I think is the more likely one. It is the 
divide the P5+1 scenario. This looks more like Iranian 
compliance, Iranian faithful compliance scenario, except the 
Iranians try and use diplomatic leverage to try and divide the 
Russians and Chinese from the West and the Europeans from the 
U.S. Iran still complies with the agreement to trigger U.N. and 
EU sanctions relief, but what it does is it exploits the P5+1 
discord and remains obstinate on things like inspections and 
resolution of PMD issues and the pace of nuclear compliance.
    Things get messy, though not to the point of escalation. 
The President threatens the use of new sanctions to keep 
countries and companies from normalizing with Iran, and he 
works to persuade the Europeans to join the U.S. in demanding 
that key parts of the agreement be renegotiated.
    Now, none of these scenarios are ideal, but they are not 
likely to be disasters either, and they are better than this 
deal. Now, they depend on the use of American power, coercive 
diplomacy, economic sanctions, and force projection. And this 
is the point: If the President believes that the Treasury can 
enact effective economic sanctions in the future, then such an 
option surely exists today. In fact, it is a better option 
today when Iran's economy is still fragile and international 
investors have yet to return to Iran.
    If the President believes, however, that the multilateral 
sanctions regime today cannot lead to an improved agreement, or 
that the U.S. cannot manage the fallout from the three 
scenarios I outlined, then he is actually admitting that we 
lack the economic leverage to enforce this agreement in the 
future when Iran will be an even stronger and more dangerous 
regime.
    I would contend that we should test that proposition today 
rather than in the future when Iran will be at near-zero 
nuclear breakout with a hardened economy, an I.C.B.M. program, 
and greater regional power. At that point, a future President 
will be left with only two options: An Iranian nuclear weapon 
or military strikes to forestall that possibility. Congress 
needs to weigh these two much more dangerous scenarios against 
the scenarios that I have outlined in considering whether or 
not to disapprove of this deal.
    Mr. Chairman, thank you again for the opportunity.
    [The prepared statement of Mr. Dubowitz follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 ----------                              

    Chairman Royce. Thank you, Mr. Dubowitz.
    Ilan.

 STATEMENT OF MR. ILAN GOLDENBERG, SENIOR FELLOW AND DIRECTOR, 
    MIDDLE EAST SECURITY PROGRAM, CENTER FOR A NEW AMERICAN 
                            SECURITY

    Mr. Goldenberg. Chairman Royce, Ranking Member Engel, 
members of the committee, I am pleased to be before you today 
testifying on the nuclear agreement reached between Iran and 
the P5+1.
    I want to make three central points. First, the agreement 
isn't perfect, but, if effectively implemented, should deter 
Iran from pursuing a nuclear weapon for years to come. Second, 
the deal is a far better option than any of the realistic 
alternatives. And, finally, what will be more important than 
the agreement itself are the policies that the U.S. pursues 
after the agreement, and I think here Congress has a major role 
to play.
    The limitations on Iran's uranium enrichment capacity and 
plutonium pathway will put it at least a year away from a bomb 
using its known facilities. This will create a situation where 
Iran will be deterred from going for a bomb, because it knows 
that if it started to dash it would be quickly caught and 
attacked. This fear of being caught is what has deterred Iran 
for the past 20 years from going to the bomb, even as it got 
closer and closer.
    The agreement should successfully deter Iran from pursuing 
a nuclear weapon using secret facilities. The inspection regime 
gives the IAEA visibility into every element of Iran's supply 
chain, making it exceedingly difficult for Iran to establish an 
entirely new secret pathway. Even with less stringent 
inspections, we caught Iran at both Natanz and Fordow years 
before those facilities became operational, and we can do that 
again.
    The agreement also puts in place the right incentives for 
Iran to comply. It receives no sanctions relief until it has 
already implemented the key nuclear concessions, and the 
snapback mechanism gives the United States an option to 
retrigger sanctions without the possibility of a Russian veto.
    The biggest weakness of the agreement, and my co-panelists 
have talked about this, is that the restrictions, particularly 
on uranium enrichment, start coming off in years 10 to 15. I 
would have preferred for this time to be longer, but the most 
important elements of the agreement are inspections and 
intrusive monitoring, because that is the most likely pathway 
for an Iranian bomb, and those stay in place forever.
    Moreover, no other option buys 13 to 15 years with a 
breakout time that is longer than today, not even a military 
option. I am quite confident of this, having spent a number of 
years working this issue closely at the Pentagon. Fifteen years 
is a long time in the Middle East. And even after 15 years many 
of the same options that we have today are still there.
    It is true that some of the $100 billion that Iran receives 
after it has implemented the key provisions of the agreement 
will likely go toward terrorism, but most will go toward 
repairing the economy. It was the threat of regime collapse 
that brought Iran's leadership to the table in the first place. 
It would make no sense for them to not address that core 
problem. That is why they are sitting at the table looking for 
sanctions relief.
    A few billion dollars in extra funds to Iranian terrorism 
is a terrible thing, but it is something that the United States 
of America can counter through a more aggressive policy of 
training partner special operation forces, intelligence-
sharing, joint covert action, and interdiction policies, 
working closely with the Saudis, the Israelis, and other key 
partners.
    What will be much more difficult to counter is an Iran that 
is able to provide a nuclear umbrella to its terrorist proxies, 
which is why we need to focus on the nuclear question first. 
The other argument is that we should have walked away and 
gotten a better deal. We already tried that approach between 
2003 and 2005, and those talks collapsed. Afterwards, the 
United States and its partners began a decade-long effort to 
increase economic pressure, and Iran responded by increasing 
the size of its nuclear program from 164 to 20,0000 
centrifuges.
    This is the Iranian centrifuge snapback option that exists 
no matter what. It exists tomorrow; it exists under this deal. 
This is their point of leverage, so I don't buy the agreement 
that somehow this deal creates that snapback option.
    If in 2013 we had levied new sanctions and gone for a 
better deal, Iran would have continued to build out its 
program, and today it would be only weeks away from a bomb. The 
United States would be faced with the dilemma of pursuing 
military action or allowing Iran to achieve a virtual nuclear 
capability today.
    Finally, the success or failure of the nuclear agreement 
will depend on the policies we now pursue, both in implementing 
the deal and in how we approach the Middle East. Congress 
should play an active oversight role. It can pursue legislation 
that creates additional snapback options outside the deal.
    It can establish a committee to ensure long-term 
implementation and oversight. It can provide more funding to 
the IAEA to make sure we have as many inspectors as possible 
and the best technology possible. That is, of course, if the 
deal passes the 60-day review period, which will be the first 
order for Congress to deal with.
    Congress should also push the administration to articulate 
a clear regional strategy that involves more forcefully pushing 
back on Iran's support for surrogates and proxies and 
reassuring Israel and Saudi Arabia. This has been a real 
weakness of the administration's policy and one that requires a 
course correction that this President can begin, but that 
really the next President will have to also lead by pushing 
back more forcefully against Iran and by also spending more 
time with the Saudis and Israelis addressing their concerns 
about Iran.
    So I hope we can spend more time today talking about U.S. 
policy options going forward, and I look forward to your 
questions.
    Thank you very much.
    [The prepared statement of Mr. Goldenberg follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
           
                              ----------                              

    Chairman Royce. Thank you.
    Ambassador Joseph, as you note, and as General Hayden 
testified last week, it is not the declared sites in Iran that 
is the biggest concern. It is the undeclared sites, the 
military bases where Iran has cheated in the past, the ones 
that the Supreme Leader still says we will never see. Those are 
the ones that we have got to be concerned about.
    You note the considerable delays that can be employed by 
Iran, drawing out what should be 24 hours to at least 24 days. 
But let me add one more concern. This suspect site provision is 
another one of the aspects of this agreement that expires in 15 
years. And I would like the members just to concentrate on that 
for a minute. As I read this provision, it says, ``The general 
provisions section of the agreement says a reliable mechanism 
to ensure speedy resolution of IAEA access concerns as defined 
in Annex 1 will last for 15 years.'' All right?
    So, by my read, this is the same time that Iran will be 
dramatically expanding its program. Without the suspect site 
provision, international inspectors would just be relying on 
their underlying authority as part of the additional protocol.
    So, Ambassador Joseph, how comfortable are you with that 
situation?
    Mr. Joseph. Sir, I share your reading of the agreement, 
even though there are gaps and ambiguities. If I am 
uncomfortable with the suspect site provisions in the first 10 
to 15 years, I am very uncomfortable after that. It makes a bad 
situation even worse.
    I would like to, because it has been raised, just comment 
very briefly on this notion of being able to detect cheating 
because of our ability to find traces of uranium, enriched 
uranium, or plutonium. The IAEA this year has raised concerns 
about Iran's cleanup at the military facility at Parchin. And 
they have stated that they very well may not be able to conduct 
a thorough investigation given Iran's activities.
    Also, not all prohibited activities are traceable through 
uranium, enriched uranium, or plutonium. I mean, just think 
about manufacturing centrifuges, for example, with no traces. 
There are many things that Iran could do at suspect sites that 
would not be detectable through the national technical means 
that we have.
    The suspect site inspections are, as I say, a fatal flaw in 
this treaty, because that is where Iran is going to cheat. I am 
not as worried about Iran cheating at declared facilities where 
the IAEA inspectors are watching them. I welcome the additional 
access to those facilities and the additional information that 
the IAEA will get under the additional protocol and other 
provisions of this agreement, but that is not where the 
cheating is going to occur.
    It is going to be at the suspect sites. We know that, 
because that is where it has occurred in the past. And we know 
that because the Supreme Leader and other Iranian leaders have 
said, ``We will not have access to military facilities.''
    Chairman Royce. Okay. And as you note also, if this 
agreement is going to really take away Iran's path to a bomb, 
why would Iran continue pouring money into its ballistic 
missile program? Why has that become such an obsession for the 
Supreme Leader that he says it is their responsibility to mass 
produce I.C.B.M.s? Just what does this provide Iran in terms of 
money to invest in the missile program, missiles that can reach 
the U.S., and the ability to access foreign technology with 
respect to what Russians wanted out of this deal at the 11th 
hour?
    With more money and foreign technology, where does their 
program go? And what more should we be doing on missile 
defense? I say that because up until now, in the interim 
agreement for a 1\1/2\ years, we lifted and basically allowed 
$700 million per month to go to Iran. And during the same 
period of time we see the announcement of the transfer of new 
rockets, new missiles, not just to Hamas, but now the precision 
guidance systems into Hezbollah.
    So they are doing something with the cash. Ambassador?
    Mr. Joseph. So Iran will have access to tens of billions, 
hundreds of billions over the period of this agreement, once 
the sanctions are released and the assets are provided to Iran. 
With that money, as you point out, they can invest in their 
ballistic missile program. They can invest in their nuclear 
program. They can invest in their terrorist surrogates. They 
can invest in the Revolutionary Guards and the fomenting of 
even more instability throughout the region.
    They have put a real priority on ballistic missiles, not 
just long-range ballistic missiles but short and medium range 
ballistic missiles. This seems to be their delivery means of 
choice. And in terms of an I.C.B.M., as you pointed out in your 
opening comments, this is a capability that only makes sense 
with a nuclear front end. It only makes sense in that context.
    So one has to ask the question: Why would they be spending 
all of this money on an I.C.B.M. capability if they had no 
intention of developing a nuclear weapon?
    In terms of missile defense, I think we need to work with 
our friends and allies in the region, providing even more 
support to Israel in our partnership on missile defense. We 
need to work with our Gulf Arab allies on missile defense as we 
are doing, but to expand that capability.
    We need to ensure that our forces in the region are 
adequately protected from the shorter and medium range 
capabilities. And I think, first and foremost, we need to begin 
to invest more in the defense of the American homeland. That is 
what the I.C.B.M. is all about--holding American cities 
hostage.
    And what has happened is that we have canceled the original 
third site in Europe. We have canceled Phase 4 of the phased 
adaptive approach, which was the only capability that would 
have the ability to shoot down a long-range Iranian missile. We 
need to either reinstitute a capability in Europe like the 
Phase 4 capability or, at a minimum, I believe, we need to 
build another interceptor site like we have in Fort Greely in 
Alaska on the east coast to protect against the I.C.B.M. 
threat, because protection of the American homeland I think is 
the first priority.
    Chairman Royce. Thank you, Ambassador Joseph.
    Mr. Engel.
    Mr. Engel. Thank you. Thank you, Mr. Chairman. As you know, 
in any agreement there are some good things in it, and there 
are some bad things in it. There are some questionable things 
in it.
    For me, the most problematic aspect of this agreement is 
that, again, after year 15, there will be no restrictions at 
all on Iran on their producing highly enriched uranium. They 
are home-free. They are essentially legitimatized as a 
threshold state. That bothers me, because if this were a deal 
that truly stopped Iran from having a nuclear weapon, then I 
would feel a lot more comfortable. I am very uneasy with the 
fact that this again doesn't stop Iran from becoming a nuclear 
state. It simply postpones it to 15 years from now.
    Mr. Goldenberg, how do you react to what I just said?
    Mr. Goldenberg. Thank you, Congressman. I agree that the 
weakest element of the agreement is the fact that 15 years from 
now certain limitations go away. But I think a number of 
limitations do stay. First, for the next 15 years we are going 
to have clarity into what Iran's research and development 
program will look like afterwards and during these 15 years, 
and it can't start until year 8 or 9.
    And if Iran wants to make any changes to that program, the 
United States will have to approve those because there will be 
a board that includes the United States that would have to 
actually--has to vote by consensus. That means on any changes 
to Iran's R&D program, we all need to approve it, so we have a 
veto.
    We also are going to have 15 years of access to their 
civilian nuclear program and what they are planning on doing 
and how they are doing it on various elements that are non-
nuclear-related. There is a long history of working with other 
countries through 123 agreements, through various mechanisms, 
so you get a full picture of what their scientists look like, 
what their plans are.
    And if we get to year 13 or 14 and this looks all very bad, 
there are plenty of opportunities then to start working with 
partners, reimposing sanctions, looking at other options at 
that point. You know, and we still have also the most important 
part for an Iranian sneakout, which I still believe is the most 
important question here is, can they build the HEU separately? 
That is what they are going to need to do. They are going to 
need a covert facility where they can actually spin centrifuges 
and enrich uranium.
    They are not going to be able to do that for at least 25 
years, because they are not going to have the capacity--because 
we are going to have 25 years of monitoring of everything, the 
entire supply chain, from the moment it comes out of the ground 
all the way to the very end. That is one of the strongest 
elements of this agreement, and that lasts a lot longer than 15 
years.
    So I agree it is imperfect. I wish it could be better. I 
think all of us do. But I think--as I think members here know 
better than anybody, tough negotiations, whether it is a piece 
of legislation or an international agreement, are never 
perfect. You always have to make sacrifices, as you wisely 
pointed out, Congressman, and this is where we are. I still 
think it is far superior to the alternative.
    Mr. Engel. Thank you. Another part of it that is 
problematic to me is we were told at the beginning that this 
would only be a discussion about Iran's nuclear program, and 
that we couldn't raise their support for terrorism, and we 
couldn't raise the mischief in Syria, in Lebanon, in Yemen, and 
all the things they do as support for Hezbollah, for Hamas.
    And then we see the agreement, and we see that suddenly 
there is an 8-year limit on ballistic missiles and 5 years on 
arms sales, which effectively changes the United Nations 
resolutions. And suddenly that element of it was put in, which 
didn't pertain to nuclear weapons, and that was problematic. 
Anybody care to talk about that? Mr. Dubowitz?
    Mr. Dubowitz. Ranking Member Engel, that is fundamentally 
the problem. This is not a 15-year deal. In some respects, this 
is--I would think of this as an 8-year deal, and you need to 
look at this deal from the prism not only of nuclear physics, 
but economics, sanctions, heavy weaponry, and ballistic 
missiles.
    And what the Iranians have done is they have negotiated an 
agreement where on the front end of this agreement they are 
effectively dismantling our sanctions regime. That means that 
they are going to get hundreds of billions of dollars to spend 
on not only building their economy but building economic 
resilience against future economic pressure, and getting the 
money to buy battle tanks and combat aircraft and attack 
helicopters. They are getting money to develop an I.C.B.M. 
program. That is all front loaded in the beginning.
    And so by year 8, you have effectively arms embargo off, 
ballistic missiles off, all of the sanctions terminate 
including congressional sanctions, and now what Iran has done 
is it has hardened its defenses and hardened its offenses. And 
so only then, at that point, do the restrictions on R&D and the 
nuclear physics sunset provisions start kicking in.
    But at that point, what Iran has done is they have 
effectively hardened themselves defensively, economically. They 
have built a powerful I.C.B.M. program over time. And as well, 
regionally, because of the lifting of the arms embargo, Iran is 
now a regional powerhouse sowing chaos in the Middle East. At 
that point, what they can effectively do is use the nuclear 
snapback to threaten to walk away from the agreement unless we 
do not reimpose sanctions.
    So it is a front loaded agreement for Iran where they get 
all the benefits up front, and we are hoping down the line 10, 
15 years, that we will be in a position to respond to a much 
more powerful Iran nuclear-wise, militarily, ballistic 
missiles, and regionally.
    Mr. Engel. Let me finish by asking one more question on 
another thing that I have concerns about, and that is the 
inspections. The joint comprehensive plan of action describes a 
system in which Iran permits 24/7 monitoring of declared 
facilities. Now, for sites that may have undeclared material, 
Iran might be able to delay inspections, the way I read it, for 
up to 24 days. Does 24 days provide timely access?
    Mr. Dubowitz. Well, you know, Olli Heinonen testified with 
me yesterday before Financial Services. He was asked the same 
question, and he was asked to rate on a scale of zero to 10 the 
inspection regime. He said on declared facilities it is a seven 
to eight. On suspicious sites, it is a five. And on access to 
facilities where Iran would be engaging in the manufacture of a 
nuclear weapon, he ranked that as zero.
    And so the issue here is that there are three types of 
sites where we will want to get into, and it is suspicious 
sites and sites where they are building a nuclear warhead where 
Dr. Heinonen said at best it is a five, and with respect to a 
warhead design it is a zero.
    I would make one other comment, Congressman Engel. It is 
not about verification and inspection only. It is about 
enforcement. The IAEA doesn't enforce; the United States of 
America enforces. And what I see from this agreement is what 
the Iranians have designed themselves, is effectively they have 
immunized themselves against American enforcement, which means 
that they can actually stymie and stonewall the IAEA, and they 
are going to be actually depending on the--we are going to be 
in a position where we are going to have to enforce the 
agreements that the IAEA can get into these sites.
    If I am Iran, what I do is I play around with the dispute 
resolution mechanism and the Joint Commission, because right 
now it is five to three, and all I have to do if I am Iran is 
flip one European country. And I will flip one European country 
by using the nuclear snapback, threatening nuclear escalation 
if anybody reimposes sanctions on me, including in an 
enforcement situation.
    So if they flip one seat, it is four to four, and you have 
basically stymied the Joint Commission, and now you are in a 
situation where it is not going to just be 24 days, it is going 
to be much, much longer.
    Mr. Engel. Mr. Goldenberg, on inspections, is your opinion 
similar or different?
    Mr. Goldenberg. Well, I view it a little bit differently, 
Congressman, because my perspective is the reality is any 
suspicious site that we find we are going to have eyes on, 
realistically in most cases before the IAEA even has eyes on it 
through our intelligence community and through the intelligence 
communities of our other partners, that is the other redundant 
piece of this.
    We will have satellites. We have will various other 
mechanisms where we can do this. And, you know, Ambassador 
Joseph brought up Parchin before. The Iranians have been 
spending years trying to clean up Parchin now. They would have 
24 days in this scenario to clean something up, and the reality 
is that--you know, you saw this in the case of Iraq. You know, 
in the case of Iraq, what we actually caught in terms of 
inspections was inspectors moving things out of the facilities 
because we had satellites on them. If the Iranians start 
behaving in a suspicious fashion, we will see it.
    And then the only other thing I will say is by far the most 
important part of the inspections, in my mind, is the fissile 
material, because the reality is, yes, the weaponization is the 
nastiest piece. It is obviously for a nuclear weapon. But the 
fissile material, the reason we focus so much on the fissile 
material is because you need a factory, you need industrial 
sized capability that is very difficult to hide in order to get 
the fissile material.
    A nuclear core in a weapon does nothing for you if you 
don't have the material to use in it. And so I think that you 
do have to look at these various pieces, but the real choke 
point is the fissile material, which is where the agreement is 
focused on.
    Mr. Engel. Thank you.
    Thank you, Mr. Chairman.
    Chairman Royce. Ileana Ros-Lehtinen of Florida.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman, for an 
excellent series of hearings. But we were just whispering 
something as the testimony was given. What were you pointing 
out to me, an important point, Mr. Chairman?
    Chairman Royce. Well, I was pointing out, by our memory, we 
don't ever remember with a case of the Syrian, you know, 
reactor, the attempt to build a nuclear weapon site there, that 
we ever detected anything there. We don't remember it with 
North Korea, the ability to detect what was going on. All we 
know is that North Korea ended up doing three nuclear weapons 
tests and ended up with a whole inventory of atomic weapons.
    And I yield back.
    Ms. Ros-Lehtinen. And now we are going to say our 
intelligence and satellite capabilities are so much more 
superior.
    But, Mr. Chairman, as you point out, as the 60-day review 
period of this Iran nuclear agreement continues, it is so 
important for us and Congress to do our due diligence and 
review the deal, and, importantly, draw attention to the flaws 
and deficiencies, because this will jeopardize our national 
security, the security of our ally, the democratic Jewish state 
of Israel, and indeed global security.
    This nuclear deal will not only not prevent Iran from 
acquiring a nuclear weapon, but it will also likely precipitate 
war as other countries in the region scramble to keep up with 
Iran.
    We are already seeing a conventional arms race. Look what 
happened in the Gulf countries council meeting where we tried 
to buy them off with a lot of arms. And if Congress does not 
vote to block this agreement, we will certainly see, in 
addition to a conventional arms race, a nuclear arms race in 
the region.
    Now, we conduct civil nuclear cooperation agreements, also 
known as 123 agreements, with nations across the globe. In 
previous agreements, we were successful for winning what is 
called the gold standard, an arrangement where our partners 
agree to forego enrichment and reprocessing as part of our 
civil nuclear cooperation.
    But with this deal, Iran will be allowed to enrich, and we 
will actually be helping Iran modernize. We will actually be 
helping Iran advance its nuclear infrastructure. We will be 
setting a precedent here. How can we expect any country that 
wants to enter into one of these agreements in the future to 
accept the gold standard when they can now look at this deal 
and say, ``No, no, no. We don't want the gold standard. We want 
the Iran standard.'' How do you see this playing out, Mr. 
Chairman, correct, in the next 10 to 15 years?
    And, Mr. Dubowitz, thank you for your testimony. This deal 
removes the EU and most U.N. sanctions from the top IRGC 
officials. Most of you have brought that out, including Quds 
Force Commander Soleimani, the Basij paramilitary chief, and 
the IRGC air force commander, among many others. This de-
listing of these individuals will unfreeze their foreign 
assets. It will lift their travel bans. That means that we will 
be facilitating their destabilizing activities overseas.
    Why were these individuals included in the final deal? 
There is no need to do that. What process will be put in place 
to redesignate them, as fanciful as that would be, should they 
continue or when they continue to engage in terrorism?
    And thank you, Ambassador Joseph. I wanted to ask you about 
Annex 5 of the JCPOA, some of you had alluded to this 
additional protocol. On implementation day, Iran will 
provisionally apply this additional protocol. These are 
measures designed to add increased avenues of verification by 
the IAEA, and only fully implement these measures pending their 
ratification by the Iranian Parliament. What will this do to 
inspections, verification, and monitoring of Iran's nuclear 
program, if the regime was not actually obligated to implement 
the additional protocol? Ambassador?
    Mr. Joseph. If I could, let me just add a footnote to the 
North Korean experience. We debated for years whether or not 
North Korea had an operational enrichment facility. We debated 
that for years internally. The issue was only resolved when 
North Korea invited an American scientist to the facility, 
recorded it, placed it on the internet, and then we decided 
that they actually had an operational enrichment facility.
    Ms. Ros-Lehtinen. Will American inspectors be allowed in 
Iran----
    Mr. Joseph. They will not.
    Ms. Ros-Lehtinen [continuing]. With this deal?
    Mr. Joseph. They will not be allowed.
    Ms. Ros-Lehtinen. Mr. Dubowitz? Oh, sorry, I am out of 
time, or almost. Go ahead.
    Mr. Dubowitz. Congresswoman, I just want to respond to Mr. 
Goldenberg's point. I mean, the real issue here is that what 
Iran will want to do is not--they are not going to break out of 
their declared facilities. It is going to be in suspicious 
sites, and it is going to be in warhead design.
    And, by the way, you don't need an industrial sized 
enrichment facility in order to produce uranium. All you do is 
you need a Fordow-like facility, with a few hundred highly 
powered centrifuges, which are much easier to hide, buried 
under a mountain on a Revolutionary Guard base. That is not an 
industrial sized facility.
    The other thing I would say is we did eventually detect 
Natanz and Arak. Unfortunately, they were almost built. So at 
that point it was too late. So the intelligence community, I 
have a lot of respect for the men and women who work there, but 
unfortunately we have gotten it wrong. We missed and didn't 
stop the Soviet Union, China, India, Pakistan, North Korea, and 
Syria. We underestimated Iraq in 1990. We overestimated in 
2003.
    And now we are in a situation where we are betting the 
future of America on the IAEA. By the way, an additional 
protocol that both David Albright and Olli Heinonen have said 
is insufficient 15 years or 20 years from now, and now we are 
going to be betting on our intelligence capabilities to detect 
a small lab 200 meters squared where the Iranians are actually 
doing nuclear warhead design, which is why Olli Heinonen gave 
it a ranking of zero. That is----
    Ms. Ros-Lehtinen. Thank you so much.
    Mr. Dubowitz [continuing]. Of deep concern.
    Ms. Ros-Lehtinen. Thank you, Mr. Chairman.
    Chairman Royce. Alan Lowenthal of California.
    Mr. Lowenthal. Thank you, Mr. Chair, and thank you, 
witnesses. I want to go back to the scenarios, if we turn this 
down, what that really means and what happens to our partners 
in this. What if they start to sell, and what if we see within 
weeks that Iran starts to create a nuclear weapon? What are we 
going to do? I want to really hear another scenario where they 
start to build a bomb, what you think we should do.
    Thank you. Mr. Goldenberg.
    Mr. Goldenberg. Thank you. The reality is I think the 
nuclear snapback that Mr. Dubowitz talked about happens on day 
one. We turn down this agreement. I think there is no realistic 
new negotiation. This is not an agreement just between Iran and 
the United States. It is an agreement between Iran, the United 
States, Russia, China, Europe, the U.K., Germany, and France.
    Mr. Lowenthal. That is right.
    Mr. Goldenberg. And I think what happens afterwards is Iran 
starts building, again, enriching centrifuges using spinning 
centrifuges, enriching uranium. I don't think that they will 
dramatically escalate immediately, but we are only 2 to 3 
months away now. That is why we had to stop it in 2013 and 
froze it. Within a couple of years, we are looking at Iran 
probably being a couple of weeks away from a bomb, at which 
point we really have very little confidence about whether or 
not we can stop it or not.
    At that point, military options become a serious debate. Do 
we allow a virtual nuclear weapon? Or do we pursue military 
options? Now, to be clear, I think if we ended up in a war with 
Iran, we would win handily, obviously.
    Their nuclear program, and many of their conventional 
capabilities, would be destroyed, but they would still have the 
capability to build that nuclear program back up in a lot less 
than 15 years, and we would have no ability in terms of 
inspections to actually get in there, unless you want to start 
taking over the country or trying to coerce them in the types 
of ways that are going to require huge amounts of American 
manpower.
    And so, realistically, then, we have basically taken a 
beehive and we haven't sprayed it. We have taken a bat to it, 
and the bees are flying everywhere. That is fundamentally what 
we are able to do in response. And the other thing I will just 
say about this scenario is we don't know what happens once you 
open up the can of worms with military action, even successful 
military action like we took in Iraq in 1991. We are still 
dealing with the consequences of that 25 years later. We still 
haven't figured out how we are going to deal with Iraq 
precisely, and we still have forces there now and have had to 
go through all of this.
    So, you know, it is always an option. And I think that 
everybody needs to remember--and I think the Iranians 
remember--that at the end of the day, if that is the option 
that gets pursued, it is going to be much worse for them than 
it will be for us, but it will be bad for everyone. And it is 
an option that really should be held out as a last resort, and 
in the meantime this option, which buys us 15 very good years 
followed by additional assurances and opportunities to stretch 
this out even further, takes away none of those options in 15 
years, in my view, because in terms of speaking about 
scenarios, I think it is also important to remember the 
scenario of a super-empowered Iran assumes everything goes 
right for them in the next few years.
    Sanctions aren't America's only tool to counter Iran. We 
have the Defense Department. We have the intelligence 
community. We have other ways to counter Iran in the region. We 
all just flip into sanctions, but you can do things like covert 
actions with partners. You can find ways to cooperate with 
others. You can push them back in Syria, and you can push them 
back in Yemen and elsewhere, without--and you can flex your 
muscles to conventional military force without--and still leave 
yourself options years down the line.
    Mr. Dubowitz. I would just say this, Congressman. There is 
an inherent flaw in that argument, and here is the inherent 
flaw. The argument assumes that at some point the Iranians are 
going to break out to a nuclear weapon, and we are going to 
have to use military force to stop them. The question is, if 
that is true, would you rather use military force today against 
a fragile Iran, which has a small nuclear program and small 
force projection?
    Or would you rather use military force against Iran in 15 
years when they have an industrial sized nuclear program with 
near zero breakout, easier clandestine sneakout, and I.C.B.M.s? 
By the way, a powerful economy, relatively speaking, that is 
immunized against future economic pressure. I oppose military 
force, which is why I think this is a deeply flawed deal, 
because I think this invariably sets us down a path where in 15 
years when they are at near zero breakout, if they break out to 
a nuclear weapon, we will only have military force to stop 
them.
    So Mr. Goldenberg's scenario today--today we actually have 
more options. If Congress rejects this deal, we go back to what 
I call the messy scenario, the divide the P5+1 scenario. The 
Iranians are absolutely going to try to flip it on us, but we 
still have U.S. secondary sanctions as a powerful instrument of 
coercion. That is what has kept the Russians, the Chinese, and 
the Europeans at bay, not multilateral diplomacy. It is fear 
that they will be cut off from the U.S. economy and the U.S. 
financial networks.
    I want to retain economic leverage, which is why we have it 
today. Let us negotiate a better deal that doesn't put Iran in 
a position that when war comes Iran will be stronger and the 
consequences will be much more severe.
    Mr. Lowenthal. Thank you, Mr. Chair. I yield back.
    Chairman Royce. Thank you, Mr. Lowenthal.
    Mr. Chris Smith of New Jersey.
    Mr. Smith. Thank you, Chairman Royce. And I do want to 
thank you again for convening this very incisive set of 
hearings that have really brought out the egregious flaws of 
this so-called arms control deal.
    Americans held hostage--again, we have had several hearings 
at the full committee level. I have had two at my subcommittee 
level. We have heard from Saeed Abedini's wife. We have heard 
from all of the family members. They are incredulous that their 
family, loved ones, continue to be held hostage, are tortured, 
are mistreated in a myriad of ways. And even with all of this 
euphoria at the White House about this deal, they are still not 
free. I find that incredible. Your thoughts?
    Secondly, on inspections, we all know that the Iranian 
Minister of Defense reportedly said that Tehran will never 
allow any foreigner to discover Iran's defensive and missile 
capabilities by inspecting the country's military sites, echoed 
by the Supreme Leader as well. He will never permit inspectors 
to inspect Iran's military bases.
    Managed access sounds more like managed manipulation or 
manipulated access. It is really not clear what all of this 24-
day thing is all about. Going to the committee, what role will 
Iran play in preventing inspections when there is suspicious 
activity? Could you really walk us through that in a more 
comprehensive way?
    And, finally, on the issue of ballistic missiles, you, 
Ambassador Joseph, talked about, ominously frankly, that this 
should include moving ahead with a third interceptor site on 
the U.S. east coast. In the end of your testimony you made that 
point, as well as other anti-missile defenses being beefed up. 
Would you elaborate on what that means? How far in do you 
anticipate into the midwest, west coast? But of course you have 
said first on the east coast. Do you believe that is a 
realistic concern?
    Mr. Joseph. Thank you, Congressman. Let me just respond to 
a couple of your points, and also to this notion that the 
agreement buys us 15 years. That sounds pretty good. But let us 
not forget, as you say, Congressman, who we are dealing with 
here, what type of regime we are dealing with here.
    This is a regime that has proven itself a master of denial 
and deception. If Iran today doesn't have a covert program, if 
it doesn't have covert activities going on today as you hold 
this hearing, it would be the first time in 20 years. Again, 
what type of regime are we dealing with?
    And talking about, well, Iran will be a threshold state in 
15 years. What is the definition? By any definition, I would 
say--and I have been in this business a long time--Iran is a 
threshold state today.
    They have the ability to produce enough fissile material, 
at declared facilities let alone covert facilities that we may 
not know about, but at declared facilities in what our 
Secretary of State says is 2 or 3 months. He says we are going 
to postpone that at declared facilities, and he doesn't talk 
about sneakout at undeclared facilities. And we don't know the 
status of their weaponization.
    Why? Because the IAEA has been obstructed, has been 
stonewalled by the Iranians ever since the November 11 report 
by the IAEA that identified 12 activities that could be 
associated and could still be going on, and it included the 
design of a ballistic missile warhead, with regard to the 
weaponization program.
    And as far as I know, Congress has not received the side 
agreement between the IAEA and Iran that will get at issues 
such as Parchin and the possible military dimensions, the so-
called PMD, the 12 activities. How are you going to make a 
judgment? How are you going to make a judgment on this without 
understanding what access the IAEA has in that case?
    With regard to ballistic missiles and the ballistic missile 
defense, I think clearly, as I said, we need to focus on 
shorter, medium, and their longer range capabilities. What the 
plan was initially was to have a capability in Europe to be 
able to shoot down I.C.B.M. class missiles from Iran. We 
canceled that in September 2009, the original third site.
    We then had a Phase 4 to the phased adaptive approach 
arrangement of this administration. Lo and behold, in March 
2013, we canceled Phase 4, which was designed against the 
Iranian long-term threat. Either we need to put that capability 
back in Europe or we need to have the capability in the United 
States. We have interceptors in California to protect against 
North Korea. We have interceptors in Alaska to protect 
primarily against North Korea. But what about Iran? And there 
are gaps in our coverage. We need to be able to protect against 
that. According to the Missile Defense Agency, the best place 
to put this is in the northeast.
    Mr. Dubowitz. Congressman, could I say something about the 
hostages, please? Because they get forgotten. At the last 
minute in these negotiations, the Iranians got last-minute 
concessions, the lifting of the arms embargo, the lifting of 
ballistic missile restrictions. They turned a nuclear deal into 
a deal-plus-plus. Why weren't we able, at the last minute, to 
demand the release of our hostages and get them back?
    Mr. Goldenberg. Congressman, just very briefly on the 
hostages, first of all, it is completely inexcusable. They need 
to be brought back. Obviously, I think we all agree on that. I 
don't think anybody is saying that this regime is--I don't 
think the administrative says it, and I certainly don't believe 
it. This is a regime that we can work with on all kinds of 
other issues. This is strictly an arms control agreement.
    But my understanding, at least from talking to some of the 
hostages' families that are hearing--and also hearing from 
others talk about is they didn't really want this issue 
entangled in nuclear diplomacy.
    Mr. Smith. You know, I have asked that question, too. They 
felt and they were advised by the State Department ad nauseam 
to take that position. And when you have a loved one in a 
precarious, horrible position like that, you are going to take 
the State Department's admonitions to heart.
    But they openly said here at hearings they were bewildered. 
And I asked Secretary Kerry, as did the chairman, why is this 
off the table, on the fringes if you will? Because they pushed 
it aside. They wanted a deal and only a deal. They didn't want 
anything to get in the way.
    I am amazed. I mean, it is shocking that they have not been 
released. But I think we should take with a grain of salt 
anything a loved one might say now because they don't want to 
in any way have the State Department walk even further away. 
Never.
    And the last point I will say, Mr. Chairman, Naghmeh told 
us at the first hearing on behalf of her husband Saeed Abedini, 
she went to the State Department and the State Department said 
there is, ``Nothing we can do to help your husband. Nothing we 
can do.'' That changed in terms of statements that were made, 
but it was never an all-in effort to get them out.
    Mr. Goldenberg. Well, I agree with you, obviously, 
Congressman, that it is----
    Chairman Royce. Yes. Let us go to Lois Frankel of Florida.
    Ms. Frankel. Thank you, Mr. Chair.
    Thank you to our witnesses today. Well, I know we all agree 
Iran should not get a nuclear weapon, and my approach is just 
to try to take a non-partisan, objective scrutiny of this, 
because it is so monumental.
    And I believe my colleagues have very articulately raised 
the concerns. I share, I would say, all or most of the concerns 
that have been raised about this agreement. I would like to 
focus back on the repercussions of disapproval. I think 
approval, if it came for approval, it would be very hard to 
vote to approve this agreement.
    The question is disapproval, and I want to understand the 
potential ramifications. I know you had said--talked about some 
of them. First, I would like to have your opinion as to the 
other countries in the P5+1 other than us. Do you believe that 
there is real motivation on their part for Iran not to achieve 
a nuclear weapon, and that they are at the table for that 
reason and not just our economic power? That is number one. I 
would like your opinion on that.
    And then, this is sort of a simple question, but after all 
of these years of negotiation, more intense the last couple of 
years, if we disapprove, what do you think is the effect of our 
standing in the world? Would anyone want to come back to the 
table with us? Would we be trusted to sit for years and 
negotiate an agreement?
    And I think I had one more question, if you can get to it, 
which is--and it was touched on before. If this agreement goes 
through, for those of you who have not already answered the 
question, what efforts could we make in Congress to give 
ourselves some more protection?
    Mr. Dubowitz. Well, Congresswoman, I was the one who laid 
out the scenarios, because I think it is absolutely critical 
that we don't--we assume that there are going to be disastrous 
scenarios today, but then we assume in 15 years everything is 
going to be rosy and optimistic. I think we have to look in a 
sober way, what are things going to look like today? What will 
they look like in 15 years? I think all of us agree in 15 years 
things will not look good, given Iran's capacity.
    Today, I laid out three scenarios, and I think that the 
reason that countries are at the table is not only because they 
fear American economic power and sanctions. They are at the 
table because every one of the P5+1 does not want Iran to 
develop a nuclear weapon.
    And so the notion that we will all walk away from the 
table, and then go and aid and abet Iran in its pursuit of 
nuclear weapons, I think is contradictory to the reasons that 
they are there in the first place. It is in their national 
security interest.
    Number two, the French hate this deal. The French tried 
their best to make this a strong deal. I think they are 
absolutely incredulous at the scale of the giveaways. So the 
notion that somehow the French are going to walk away and not 
work with us, and the French are the linchpin in the EU. If the 
French are with us with respect to economic sanctions, then the 
EU is with us, so we will still retain the power of economic 
sanctions.
    In terms of our standing in the world, I think, again, this 
is not a popularity contest. I think as Ambassador Joseph said, 
this is about American leadership, and this is about preventing 
Iran from not only developing a nuclear weapon but sowing 
sectarian chaos in the Middle East. I think this would be a 
reassertion of American leadership, that the U.S. Congress has 
said that this deal is going to lead to disastrous consequences 
down the road, and that we want to negotiate a better deal that 
removes some of these fatal flaws that Ambassador Joseph spoke 
to.
    Mr. Goldenberg. Congresswoman, look, I agree with Mark 
actually here that at the end of the day I don't think our 
credibility goes entirely away. I do think it hurts our 
credibility that people that negotiate with the United States 
of America, because we are the United States of America, we are 
the world's superpower.
    So I don't think everything goes away, and all these 
countries have an interest in preventing Iran from getting a 
nuclear weapon. I think it will be very difficult to hold the 
unity of the P5+1. I think a lot of the sanctions might start 
to atrophy. I think the Iranians will respond in a way that 
they will be able to move more quickly in terms of revving up 
their nuclear program than we will be able to in terms of 
renegotiating or putting in more sanctions and leverage, 
precisely because of this situation. And so I think they will 
be at the advantage, not us, in this scenario.
    I also want to talk--I thought your question, 
Congresswoman, about what Congress can do afterwards, because 
this I think is very important. And whether you support or 
oppose the deal, I think this is something where Congress can 
really come together. There needs to be a piece of implementing 
legislation. Let us say you get through the 60 days, and if the 
agreement is overturned, then I think everything stops and is 
fine. That is one scenario.
    But if you get through the 60 days, there is still an 
opportunity here for members who oppose the deal to say, ``I 
hate this deal, but I can make it better,'' and those who are 
reticent but support it to say, ``I am uncomfortable, but I am 
not going to get in the way.''
    But here is how we are going to make it stronger. One, work 
with the administration. They should be able to work with 
Congress to let us think about different American snapback 
provisions beyond the agreement itself that go in place and 
could be put into legislation for different scenarios, 
particularly middle ground scenarios where things are a little 
squishier than, you know, overwhelming breaches, which is one 
of the difficulties in the agreement.
    Two, some kind of board that oversees, whether it is in 
Congress. More money for the IAEA. Pushing the administration 
much harder on what they should be doing in the region. There 
is a number of things that people here can all agree on I think 
and really come together on a very strong piece of legislation.
    Chairman Royce. Steve Chabot of Ohio.
    Mr. Chabot. Thank you, Mr. Chairman.
    Mr. Goldenberg, let me ask you this. Ambassador Joseph 
mentioned a little while ago something that I think makes a lot 
of sense. Why would the Iranians spend so much time and so much 
effort in developing I.C.B.M.s, intercontinental ballistic 
missiles, if they don't intend to acquire and build nuclear 
weapons? And if you could make it brief, because I have got a 
bunch of questions.
    Mr. Goldenberg. Sure. I mean, I think that they started 
this program when they intended to build nuclear weapons, and 
we have been working to change that and----
    Mr. Chabot. Okay. At the end here especially, wasn't that 
one of the big things that they insisted on? They insisted and 
we succumbed to this--the whole idea of lifting the arms 
embargo, which will give them the ability to acquire additional 
technology, I.C.B.M. technology from Russia.
    So, I mean, I think the answer clearly is they wouldn't 
want to proceed with it, if they didn't intend to get nuclear 
weapons. Ambassador Joseph, would you want to touch on that 
briefly?
    Mr. Joseph. Sir, I think you have got it exactly right.
    Mr. Chabot. Okay.
    Mr. Joseph. I mean, it only makes sense in the context of a 
nuclear weapons program.
    Mr. Chabot. Right. Let me follow up. You also said 
something before, which I think makes imminent sense, and that 
is that now that we have got this terrible deal facing us that 
we need to protect our cities, and you have suggested that we 
have to seriously consider an anti-missile shield on our east 
coast. And that is correct; you do support that, is that right?
    Mr. Joseph. Yes, sir.
    Mr. Chabot. Okay. Let me follow up on that, then. One of 
the very first things that the Obama administration did when 
they took office was to cancel our agreement, which was a slap 
in the face of two of our strong allies, the Czech Republic and 
Poland. And that anti-missile technology that isn't there now, 
it was aimed at a potential Iranian missile heading in Europe's 
direction or our direction. And so now that they have done 
that, and with this agreement, it seems that they have put us 
very much in harms way. Would you comment on that?
    Mr. Joseph. I certainly would, sir. Not only did the Obama 
administration cancel the third site, it canceled every single 
program that was designed to develop capabilities to keep pace 
with the threat. It canceled the MKV, the multiple-kill vehicle 
program. It canceled the KEI, which is what was to be a boost 
phase interceptor. It canceled the airborne laser. It reduced 
the number of interceptors, the ground-based interceptors at 
Alaska. I mean, it eviscerated the program.
    Mr. Chabot. Thank you. Let me move on, if I can. Thank you.
    Mr. Goldenberg, how long was it after the announcement of 
this deal that we had people in the street in Iran, including 
Iranian leaderships, chanting ``Death to America''?
    Mr. Goldenberg. Look, I think that that is--this leadership 
nobody is talking about the fact that----
    Mr. Chabot. It wasn't very long.
    Mr. Goldenberg. It wasn't very long.
    Mr. Chabot. Almost immediate we heard that.
    Mr. Goldenberg. You also had overwhelming support for the 
agreement that----
    Mr. Chabot. Now, you have also talked about snapback, the 
sanctions, and we can snap them back now. ``Snap'' sounds like 
it is pretty quick. You know, snap back. We have got--they are 
back on.
    Mr. Dubowitz--and, again, if you could keep your answer 
relatively brief--are we going to be able to snapback these 
sanctions?
    Mr. Chabot. Snapback sanctions are a delusion. I could go 
on.
    Mr. Chabot. Okay. I think you have answered my question 
there.
    And this 24-hour--you know, or excuse me, 24-day thing 
which the administration has been pushing, like which is--
sounds pretty long to me because you can hide a lot of 
incriminating evidence in 24 days, but it is really, I 
understand, a heck of a lot longer than 24 days in the real 
world, because we have to go through a whole series of things 
which Iran can block, it is my understanding.
    Either Ambassador Joseph or Mr. Dubowitz?
    Mr. Joseph. Well, I certainly--I think they certainly can. 
And remember that this is a deviation from the standard 
additional protocol, which calls for 24 hours, 24-hour notice. 
So in the negotiations that was extended from 24 hours to 24 
days, and 24 days is just the first phase, because it can 
continue for days or weeks thereafter. And Iran can obstruct 
the inspectors and they can get rid of a lot of the evidence in 
that timeframe, according to the IAEA.
    Mr. Dubowitz. And it is not just 24 days; it is much, much 
longer because the time that it takes to snapback the U.N. 
resolution, and then U.S., and then EU sanctions, and have that 
impact, is much, much longer.
    Mr. Chabot. How long can we realistically be talking here 
before you could actually get to a site and see what they are 
doing? Potentially.
    Mr. Joseph. I would think the way that the Iranians can 
play this, it could go on for months.
    Mr. Chabot. Thank you. I yield back. This is I think just a 
terrible deal, and I hope that we look very closely at this. 
And I thank the chairman for letting us look closely at this.
    Thank you.
    Chairman Royce. Tulsi Gabbard of Hawaii.
    Ms. Gabbard. Thank you. Thank you, Mr. Chairman.
    I am wondering what, if you can name specifically what 
materials--you alluded to this earlier, what materials can be 
hidden within that 24-day period? And the followup question is, 
how specifically can Iran get around the 24/7 monitoring that 
the administration is touting of the entire supply chain?
    Mr. Joseph. Well, there are a whole host of things that the 
Iranians could hide within the 24 hours. I mean, I mentioned 
centrifuge manufacturing. Okay? That involves a lot of 
different components, none of which necessarily can be traced 
to uranium or plutonium.
    The Iranians can continue, you know, the deception that we 
have seen for years in their games with the IAEA. According to 
the inspectors, according to the IAEA, they can undercut the 
ability of the inspections.
    Ms. Gabbard. I am just wondering if you can give some 
specific examples, because we are getting arguments from both 
sides. But I am wondering specific materials or specific 
problems or areas of vulnerabilities within the supply chain 
that can be hidden both from their cameras and their sealed--
their seals and their monitoring that we can look to, and that 
you can point to as a vulnerability.
    Mr. Joseph. Well, I mean, one specific example is, you 
know, centrifuge parts.
    Ms. Gabbard. Okay.
    Mr. Dubowitz. And another specific example is certainly on 
the issue of where Iran would be building a warhead, access to 
the computer modeling, the computer codes, the actual design of 
the warhead, multi-point detonation devices. I mean, all of 
that doesn't leave a footprint. It takes place in a small 
laboratory. And according to inspectors, it would be a matter 
of a couple of days to literally move out all of that 
equipment.
    And, Congresswoman, you have to understand, the Iranians in 
2003, what happened then is that they hadn't built contingency 
plans, so it was easier to catch them. They have learned from 
that, so they are not going to just get caught, oops, the 
inspectors have all of a sudden identified a site. They built 
contingency plans to sanitize the site, and inspectors have 
said that you can literally do that in a couple of days.
    So the issue is on the most fundamental aspect of the 
Iranian nuclear weapons program, the warhead design. We are 
effectively blind, and the Iranians have a contingency plan 
that in a couple of days they can sanitize a lab, move out all 
of the equipment, and even if we do get into that site there 
will be no evidence that they have conducted that activity.
    Mr. Goldenberg. Congresswoman, if I can just add, you know, 
it is true, on the warhead design it is incredibly difficult to 
find warheads. It is incredibly difficult to look at--you know, 
a nuclear weapon is three pieces. It is the ballistic missiles, 
it is the warheads, it is the fissile material. The fissile 
material in some ways is the least harmful piece, right, 
because it can also be used for civilian purposes.
    But that is where you detect, and that is what this deal is 
designed to do, because it is a lot easier to detect that. When 
you have to put a few hundred centrifuges, when you have to 
hide uranium, you can have weaponization plans, but if you 
don't have the material to actually do it, and this is 
precisely when the administration talks about the supply chain.
    What it is saying is it will be incredibly difficult for 
the Iranians to be able to actually get the material secretly 
that it needs. It has to build an entirely independent system, 
starting with, where are we going to get the uranium to, where 
are we going to get the centrifuges to, where are we going--you 
have to do every piece of this process independently of the 
supply chain monitoring that we already have, and that is the 
rationale.
    It obviously has holes. And, you know, I would love to see 
a foolproof system for dealing with weaponization. I don't 
think one exists in the world, period, if a country is really 
determined to do that.
    Mr. Dubowitz. Of course, if you are Iran, you know what you 
do is when you have an industrial sized program, and you 
actually are producing as Congressman Engel said, an unlimited 
amount of enriched uranium, which by the way you can enrich not 
only to 3.67 percent, now they get 20 percent, but the Iranians 
will enrich to 60 percent and they will use the fact that they 
need a nuclear-powered naval fleet.
    And so at that point you have got huge quantities of 
uranium all around the country, in a country that is more than 
twice the size of Texas. So that is when it becomes very 
difficult to actually detect a diversion of enriched uranium to 
a covert enrichment facility with a few hundred centrifuges 
buried under a mountain on a Revolutionary Guard base.
    And, by the way, why wouldn't you co-locate that with your 
warhead design facility? So you would be able to very quickly 
move that highly enriched uranium into another small lab where 
you can now turn it into uranium elements for a nuclear 
warhead. That is the fundamental problem. In an industrial 
sized program, 150 inspectors or 200 inspectors are going to 
have a very difficult time detecting that.
    Mr. Goldenberg. The additional protocol remains in place in 
that scenario.
    Mr. Dubowitz. Which every inspector, which every expert has 
said----
    Ms. Gabbard. Thank you. My time has expired. Thank you.
    Chairman Royce. Mo Brooks of Alabama.
    Mr. Brooks. Thank you, Mr. Chairman. This question or 
series of questions is directed to each of you, one at a time. 
Brief answers would be appreciated, given time constraints.
    This past April Iranian Brigadier General Mohammad Reza 
Naqdi stated that erasing Israel off the map is non-negotiable. 
Do you believe his comments accurately reflect a goal of the 
Iranian Government? Ambassador?
    Mr. Joseph. Yes, I do.
    Mr. Brooks. Mr. Dubowitz?
    Mr. Dubowitz. Absolutely.
    Mr. Brooks. Mr. Goldenberg?
    Mr. Goldenberg. Yes. But they wouldn't do it if it meant 
the destruction of their regime, which I think it certainly 
would.
    Mr. Brooks. Okay. Second question. This past weekend 
Iranian Supreme Leader Ayatollah Ali Khameini led a rally that 
was frequently punctuated by chants of ``Death to America'' and 
``Death to Israel.'' Again, do you believe his comments 
accurately reflect a goal of the Iranian Government?
    Mr. Joseph. Yes, I do.
    Mr. Brooks. Mr. Dubowitz?
    Mr. Dubowitz. It is their animating ideology. Without that 
ideology, there is no Islamic Republic.
    Mr. Brooks. Mr. Goldenberg?
    Mr. Goldenberg. I think it is important to remember that 
the overwhelming majority of the Iranian population is actually 
much more pro-American than pretty much any country in the 
Middle East. So this regime has issues, but thus far at least 
it has been deterred through, and will continue to be deterred, 
by our actions.
    Mr. Brooks. Okay. That is not answering my question. Do you 
believe ``Death to America'' and ``Death to Israel'' are goals 
of the Iranian Government?
    Mr. Goldenberg. Not realistic goals that they could pursue 
without facing severe consequences that have deterred them for 
35 years from acting on those goals in ways that could 
actually----
    Mr. Brooks. All right. Next, given your responses, do you 
also believe that Iran, the world's foremost sponsor of 
terrorism, will use the conventional weapons made available by 
the Iran nuclear treaty to further Iran's goal of destroying 
Israel and killing Americans? Ambassador Joseph?
    Mr. Joseph. I think there is a 100 percent chance that they 
will do that.
    Mr. Brooks. Mr. Dubowitz?
    Mr. Dubowitz. It has already used conventional weapons to 
kill Americans and kill Israelis. Why wouldn't it continue?
    Mr. Brooks. Very good way to answer a question with a 
question. I tend to agree.
    Mr. Goldenberg?
    Mr. Goldenberg. Yes. And there is a lot of other things, 
sir, that we should be doing to counter those activities, but 
it doesn't necessarily preclude a nuclear agreement.
    Mr. Brooks. And given how frequently we have seen Muslim 
fundamentalists be willing to sacrifice their own lives in 
furtherance of their desire to kill unbelievers, we saw it with 
9/11 roughly 14 years ago, we have seen it in many other places 
around the globe, including the United States. As I see this 
agreement, at some point there is a probability that Iran is 
going to obtain nuclear weapons. Do you agree or disagree?
    Mr. Joseph. I think they can go nuclear today if they so 
decide, and have a nuclear weapon in a very short period of 
time.
    Mr. Brooks. And if they comply with this agreement, do you 
believe they still will obtain nuclear weapons, at some point?
    Mr. Joseph. It is hard for me to believe that they are 
going to comply with the agreement, because, as you know, the 
chairman pointed out, they have cheated on every other 
agreement. My sense is that they will use this agreement as a 
shield for continuing to develop a nuclear weapons capability, 
and when they decide they will go nuclear.
    Mr. Brooks. Mr. Dubowitz?
    Mr. Dubowitz. I think at some point it will be an 
irresistible impulse to actually test a nuclear weapon. And 
even if they don't, they will use the near zero breakout 
capability they will have to threaten the United States and 
threaten the region, and use it as an instrument of nuclear 
blackmail in order to expand their conventional and terrorist 
activities.
    Mr. Brooks. Mr. Goldenberg?
    Mr. Goldenberg. I think they have been deterred from 
actually going for a nuclear weapon for 35 years, because of 
the costs and consequences that come with that. And this 
agreement will extend and continue that trend.
    Mr. Dubowitz. And, of course, Congressman, that actually 
contradicts the claim that if this agreement gets turned down 
by Congress, we are going to--Iran is going to engage in 
nuclear escalation to a nuclear weapon.
    Mr. Brooks. I understand.
    Final question. Given the religious zealotry of the Iranian 
Government, what degree of certainty do you have, one way or 
the other, that Iran won't use nuclear weapons to further 
``Death to America'' and ``Death to Israel,'' if and when Iran 
obtains those nuclear weapons? Ambassador Joseph?
    Mr. Joseph. Well, I think Iran will use nuclear weapons. 
They will use it to intimidate. They will use it to blackmail 
us. They will use it to deter us from coming to the assistance 
of our allies in the region.
    Mr. Brooks. But will they detonate them?
    Mr. Joseph. Well, will they detonate? I think they will 
risk it, and I think they will be very--and the situation will 
be very subject to miscalculation, and I think that this could 
very easily escalate into their use of a nuclear weapon.
    Mr. Brooks. If the chair would permit Mr. Dubowitz and Mr. 
Goldenberg?
    Mr. Dubowitz. They would certainly detonate it to test it. 
And we would want the world to know that they have the 
capability to actually deploy a nuclear weapon. Whether they 
end up using it, I cannot say. But I think that it doesn't 
matter whether they use it or not, fundamentally they will 
detonate it, and then they will have a nuclear weapon to 
blackmail the United States and the international community for 
all of their conventional and terrorist purposes.
    Mr. Goldenberg. I agree with my panelists, which is why I 
think we need this agreement, which stops that from happening 
is, in my view, the better option.
    Mr. Brooks. Mr. Chairman, thank you for the additional time 
for the witnesses to respond.
    Chairman Royce. Mr. Brooks, thank you very much.
    Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman. I presume that each 
of the panelists believes that today Iran is a nuclear 
threshold state.
    Mr. Joseph. Yes, sir. I do.
    Mr. Dubowitz. They are a nuclear threshold state, but they 
are still a very weak state.
    Mr. Goldenberg. Yes. They are a nuclear threshold state, 
sir.
    Mr. Higgins. With this deal, which would reduce the number 
of centrifuges from 19,000 to some 6,000, and reduce uranium 
and plutonium by 98 percent under this deal, wouldn't Iran 
become less of a nuclear threshold or threat to the region?
    Mr. Joseph. It is certainly better that Iran, at declared 
facilities, is spinning fewer centrifuges rather than more 
centrifuges.
    Mr. Higgins. Okay.
    Mr. Joseph. But they are going to have the additional 
centrifuges in storage, and they could very easily reconstitute 
that capability for breakout.
    Mr. Higgins. Okay.
    Mr. Joseph. Now, we would detect it, but one also has to 
consider what may be going on at suspect sites.
    Mr. Dubowitz. There is no fundamental difference between a 
3-month breakout and a 12-month breakout. Neither is enough 
time to reimpose sanctions. Both are enough time to use 
military force.
    Mr. Goldenberg. Actually, Congressman, I would disagree. I 
think there is a huge difference between a 12-month breakout 
and a 3-month breakout. And I think we also have to remember 
that a 12-month breakout is if everything goes right for Iran 
from day one, they build only one nuclear weapon, which nobody 
has ever done. You have to build an arsenal. That is the only 
way you can credibly deter. So you are talking about a lot more 
time than that.
    And, fundamentally, it gives us enough time to be able to 
respond in all kinds of different ways, politically, 
diplomatically, militarily. At a couple of weeks, the only real 
option is to pursue--to go military, because you are not going 
to have time to do anything else.
    Mr. Higgins. Well, it has always been stated that, you 
know, the 12-month breakout was necessary from our standpoint 
strategically, to be able to detect whether or not Iran was 
moving toward a nuclear weapon, and to be able to act against 
it before they are able to accomplish that.
    I think the one thing that hasn't been emphasized enough 
here, nobody is suggesting that the United States is taking the 
military option off the table. This is an interim step toward 
the goal of using international leverage to get Iran to move 
away from its nuclear ambitions.
    Mr. Dubowitz. Congressman, you should ask Secretary Kerry 
how the 1-year breakout was chosen. Was that based on a deep 
analysis by the intelligence community and the U.S. Government 
that 1 year was exactly the point of time that we needed in 
order to have the full range of options that Mr. Goldenberg 
said? Or was it chosen artificially or through negotiations 
with Iran? I would be interested in his answer.
    Mr. Higgins. Do you think he just came out with the 1 year 
arbitrarily to make it look better than the current situation?
    Mr. Dubowitz. I think that this 1-year breakout was chosen 
arbitrarily. It was not put through a deep, rigorous analysis.
    Mr. Higgins. Why would they do that?
    Mr. Dubowitz. Well, because I think at the end of the day 
when they shifted the fundamental precept of this negotiation 
from Iran's nuclear program judged by its practical needs to a 
breakout time, what they needed to do was they sat down with 
the physics of this and they tried to figure out what would be 
the most they could negotiate with the Iranians based on the 
existing enrichment capacity.
    And they realized that the Iranians are not going to give 
up their entire enrichment capacity. They weren't going to go 
down to--1,000 centrifuges to 500 centrifuges the 
administration initially started in the negotiation. They back-
ended the analysis, and they came up with 1 year. But I don't 
believe that there was any systematic effort in order to 
analyze or red team whether 1 year was sufficient.
    Mr. Higgins. What you are suggesting is the 1-year breakout 
was to appease the Iranians at the expense of the strategic 
interests of the United States.
    Mr. Dubowitz. I am not suggesting to appease. I am 
suggesting that they thought that was the best they could 
negotiate.
    Mr. Goldenberg. I actually believe----
    Mr. Dubowitz. Fundamentally different.
    Mr. Goldenberg [continuing]. Congressman, having worked on 
this issue inside the Pentagon when we were discussing 
precisely these types of questions, the question for us was 
always, do we have enough time to clearly see the program, stop 
it, and not only that we know we can stop it militarily and 
otherwise, but that the Iranians know that we can stop it 
militarily and otherwise, so that they are deterred from ever 
going for it?
    And this is something we talked about for years, and I was 
always very confident with a number like that. And on top of 
that, I do think we need to--I thought your point, Congressman, 
was really important about this being an interim step. The 
reality is, there comes a moment where our only options are 
military action or essentially accepting a virtual capability, 
because we are not going to have the ability to stop it.
    At that moment, the President of the United States has to 
make a terrible decision, and we all lose, whichever way he 
goes.
    Mr. Higgins. All right. Could I----
    Mr. Goldenberg. And 12 months is not long enough to 
reimpose sanctions.
    Mr. Higgins. Let me just reclaim my time for one moment. It 
said that this deal would result in a nuclear arms race in the 
Middle East. The fact of the matter is, Iran has been in 
nuclear proliferation for at least 10 years. Who else is 
pursuing nuclear weapons in the Middle East, other than Iran?
    Mr. Joseph. Well, Congressman, you are well aware of 
Pakistan and Pakistan's program.
    Mr. Higgins. I am.
    Mr. Joseph. Saudi Arabia has said that----
    Mr. Higgins. Saudi Arabia can't make a car.
    Mr. Joseph. Saudi Arabia has a lot of money, and Saudi 
Arabia has a long-time relationship----
    Mr. Higgins. And they can't make a car.
    Mr. Joseph [continuing]. A long-time relationship with 
Pakistan.
    Mr. Higgins. Is there any evidence that Saudi Arabia is 
moving towards----
    Mr. Joseph. And you could say the Libyans. The Libyans 
couldn't make a car either, but they had an advanced nuclear 
weapons program, because they were able to buy it. They were 
able to buy the equipment, and they were able to buy the 
expertise. Saudi Arabia has a lot more money than the Libyans 
ever----
    Mr. Higgins. So the point is, there is already nuclear 
proliferation in the Middle East before this deal is voted on 
or approved.
    Mr. Dubowitz. Yes. But the fundamental difference--I mean, 
the Saudis have actually signed multi-billion dollar contracts 
with the South Koreans and Russians to build a civilian nuclear 
program. The difference is that there will be the Iran 
standard. The Saudis will insist on domestic enrichment, and 
anybody who says we can de-SWIFT Saudi banks, cut off Saudi oil 
exports, and designate the central bank of Saudi Arabia to stop 
it from pursuing that path, should do a much more detailed 
examination of the Saudi economy. Those options obviously don't 
exist.
    Mr. Goldenberg. I will just point out that if the Saudis 
really wanted to build a covert nuclear weapons program, they 
wouldn't be going around on the front page of The New York 
Times saying that they wanted to do that. Is it conceivable 
they are doing it for leverage?
    Chairman Royce. Darrell Issa of California.
    Mr. Issa. Thank you, Mr. Chairman.
    Mr. Goldenberg, where were you in 1979?
    Mr. Goldenberg. Sir, I was actually in Israel where I was 
born. I was a year old.
    Mr. Issa. Okay. So for your entire life, from the age of 1 
year old, Iran has been a terrorist state, first pretending 
that students had taken our Embassy while in fact it was the 
current government, or its legacy government with the same 
theological base, that took our Embassy prisoner, held them for 
more than a year, and in fact sequentially, when you were 4 
years old or so, they blew up--they participated and funded the 
organization that blew up 200-plus Marines in Beirut and our 
Embassy.
    You were 3 or 4 years old when they killed the station 
chief, and when they sponsored kidnappings in large amounts. 
Did you continue growing up in Israel during the '80s?
    Mr. Goldenberg. Yes, sir. I was there until the age of----
    Mr. Issa. So the organization and the funding of Hezbollah, 
for your entire life, has been responsible, along with Hamas 
and other terrorist groups, Palestinian, Islamic Jihad, that 
country has consistently funded the murder of Israelis and 
Americans for your entire life, from the time you were 1 year 
old, and they are doing it today. Isn't that true?
    Mr. Goldenberg. Well, sir, when I was 4 years old, one of 
my best friends, actually his older brother was killed in a war 
by Hezbollah. Yes, it is true. But----
    Mr. Issa. Okay. So staying on that for a moment, because 
often, you know, it is--you know, the Judiciary Committee, 
another committee I sit on, you know, we consider antitrust. 
But of course antitrust is based on what the relevant market 
is. If you define a market broadly enough, nobody has market 
power. If you define it narrowly enough, everybody has market 
power.
    So I would like to define a question for all three of the 
panelists right now. For 36 years, Tehran has sponsored 
terrorists from around the world and killed Americans and 
countless others. For 36 years, they have had a virtual 
straight path, and for 36 years we have heard about students 
and Iranians loving America.
    What will change in the next 13 years, the time it takes 
from where we are today to the time in which perfectly legally 
Tehran will have the ability to have nuclear weapons? All they 
have to do--and I just want to preface it--all they have to do 
is say they want a nuclear navy, and they will have the ability 
to do everything it takes to have a bomb ready in a matter of 
minutes.
    And I will go right down the aisle from left to right, 
please.
    Mr. Joseph. Sir, I think in 13----
    Mr. Issa. Or right to left, depending upon which way you 
are facing.
    Mr. Joseph. In 13 years, Iran will have the capability to 
have a nuclear weapon whenever it decides to do so that. In 13 
years, I think in part because of this agreement, Iran will be 
more capable, it will be more aggressive in the region, and it 
will be more able to continue to repress its people. And the 
ultimate solution to this nuclear issue resides with the 
Iranian people. And here I----
    Mr. Issa. Okay. My question is somewhat short, so I will--
let us keep going down. In 13 years, is there any--do you have 
any reason to believe they will be different than they were in 
the last 36?
    Mr. Dubowitz. Not at all. In 5 years, they are going to 
have access to combat aircraft, attack helicopters, heavy 
weaponry, in order to create more chaos and kill more 
Americans. In 13 years, I prefer in dealing with the Middle 
East to assume the worst and be surprised on the up side than 
assume the best and be devastated on the down side. So that is 
why I assume the worst about the Iranian regime.
    Mr. Issa. And, Mr. Goldenberg, I used you for obvious 
reasons of your support for this initiative. But if in your 
entire life, since you were 1 years old in Israel, a regime has 
been able to sustain itself with and without sanctions, through 
this entire period, and continue to murder Americans, Israelis, 
and others, what is going to change as a result of this deal, 
while theoretically we maintain all of the sanctions that were 
in place for two-thirds of your life?
    Mr. Goldenberg. Sure. Thanks, Congressman. I will just say 
we don't know what is going to happen inside of Iran in the 
next 15 years. I think it is perfectly conceivable that hard 
liners double down and win this fight internally. It is also 
conceivable that pragmatists, and I say pragmatists because 
they are not liberals, they are not--you know, Rouhanis are not 
pushing for democracy. They do value economic engagement and 
international legitimacy more. And they did win this huge 
debate inside of Iran, which is very unusual and hasn't 
happened in a long time.
    Mr. Issa. Okay. So, to summarize----
    Mr. Goldenberg. But it is possible.
    Mr. Issa [continuing]. Two of you believe they will 
continue to do exactly what they are doing. Mr. Goldenberg, you 
believe they might continue doing what they are doing, trying 
to get rid of the big state, the little state, killing 
Americans, killing Israelis, sponsoring terrorism, 
destabilizing the region, but they might not.
    So you are counting on hope based on the partial 
elimination. There is a document, a classified document, it is 
about three times the thickness of this, that has a list--I 
can't name the names, but it has a list of banks and ships and 
aircraft, all of which are going to be freed up immediately as 
a result of this agreement, so that their economic machine, the 
machine that causes their government to deliver goods and 
services to their people, and make their people more docile as 
a result, that is all the benefit to he regime.
    So, Mr. Chairman, I have taken a little extra time. I 
appreciate your understanding. I find the question that all 
three answered to be the question we should be asking is, what 
difference does it make, what change will happen as a result of 
this? If we concentrate on the question of nuclear, which I 
think is a good one, we miss the bigger question. A terrorist 
state for 36 years, given more money and less things that would 
cause the toppling of it, will undoubtedly continue doing for 
the future what they have done for 36 years in the past.
    Mr. Chairman, I appreciate your continued ability to bring 
us facts, and it is enlightening. And I thank you and yield 
back.
    Chairman Royce. Thank you, Mr. Issa.
    Mr. Brad Sherman of California.
    Mr. Sherman. The Ambassador talks about missile defense. A 
nuclear weapon can be smuggled inside a bail of marijuana. It 
is less prestigious, but it gives you plausible deniability, 
which might meet Iran's MO even better.
    Secretary Kerry is over in the Senate saying you can't bomb 
away knowledge. There are two types of military action we could 
take. The one that is dismissed by the Secretary is just 
hitting the nuclear sites, sets them back 2 or 3 years. 
According to him, the other approach is to threaten World War 
II rules of engagement style bombing of all strategic economic 
targets in Iran until they invite Mr. Dubowitz to go over there 
and clean out their nuclear facility.
    I thought I would get a smile out of that one.
    Okay. This deal has the good, the bad, and the ugly. We get 
rid of--the good is we get the stockpiles, decommission the 
centrifuges. The bad is they get their $100 billion. That is 
money for their people, money for graft and corruption, money 
to kill a lot of Sunni Muslims, money to kill Americans and 
Israelis.
    The ugly is 11, 12 years from now, and you gentlemen have 
all explained why that is true. Just to describe how ugly it 
is, it is too ugly for President Obama. He refuses to live in 
the White House except for with an Iran that has a 1-year 
breakout period and 6,000 relatively primitive centrifuges.
    Yet he envisions a world in which his successors are living 
in that same house with Iran having 100,000 IR-8 advanced 
centrifuges and a breakout time that he describes at basically 
zero. Why does he do to his successor, whoever she may be, what 
he is unwilling to live with himself?
    So we have got to prevent this deal from being binding on 
future administrations. This is an executive agreement. It is 
not an executive legislative agreement, and God knows it is not 
a treaty. We all want to sit here and evaluate the deal. What 
would we do if we were President now or a month ago or a year 
ago?
    The real question before us is not, is it a good deal? The 
real question before us is, what should Congress do? And those 
who dislike the agreement the most, or at least with the most 
unbridled passion say, ``Here is what we do. You should have a 
vote in Congress to override a Presidential veto of a 
resolution of disapproval.'' Okay. What does that do?
    First, it fails. So the last picture the world sees is the 
proponents of the deal celebrating their congressional victory. 
And then we have to explain to the world that is not an 
executive legislative agreement. That was not a ratification, 
even though the picture you saw was the proponents celebrating, 
because the opponents couldn't stop themselves, couldn't 
prevent themselves from bringing the vote up in that manner, 
couldn't just have us vote on a resolution of approval and vote 
it down.
    They had to bring up a veto override. Couldn't contain 
themselves. The picture is much louder than the words. The 
picture is the proponents celebrating congressional support for 
the deal.
    Now, let us say we override the President's veto, the dream 
of many. Okay. Does that snapback our sanctions? First, it 
doesn't do anything at the U.N. The President will vote against 
Congress' position at the U.N. Doesn't do anything with the 
State Department. They are going to be all over telling foreign 
capitals, ``Go do profitable business with Iran to the extent 
that Iran adheres to the deal. It is a great deal. Don't listen 
to Congress.''
    But the question is, will they even follow the statute as 
to U.S. sanctions? That is the question I asked at the 
classified briefing. Secretary Jack Lew was very clear that he 
absolutely refused to answer the question. Okay. It took him 2 
minutes to say that, but he absolutely did 2 minutes of not 
answering.
    So they are not going to follow the law. So even if we 
override, Iran still gets all of the sanctions relief because 
when we say ``sanctions on Iran'' we don't mean sanctions on 
Iran. We mean sanctions on banks and oil companies in Europe 
and Japan who choose to do business with Iran, and in this case 
they will be doing business with Iran that President Obama 
tells them to do.
    It is nice to say Congress is going to--we are going to 
take our guns with us and go up to the Fed New York Branch and 
stop the transactions of the banks that are doing the things we 
don't want to do. No. You can't have sanctions. You can't block 
a bank from doing business in the United States, unless the 
executive branch is. And the proof of this was George W. Bush 
who for 8 years violated the Iran Sanctions Act for the benefit 
of international oil companies every single day.
    And then we get--let us say, though, for--we did do that. 
Then the question is, would other countries kowtow to the 
United States Congress? It is one thing for Britain to say, or 
for Germany to say, or for North or South Korea to say, ``We 
are going to buy less oil from Iran because the Americans have 
persuaded that that is a good idea, and oh, by the way, they 
said, well, banks will have trouble if we don't adhere.''
    It is another thing for them to go to say, ``We are 
stopping our banks from doing business with Iran, and we are 
not going to buy oil from Iran, because we are kowtowing to 
sanctions--to a policy that Congress likes, but we think it is 
stupid. The President of the United States thinks it is stupid. 
The whole world voted against it.'' It would be politically 
difficult.
    But then let us say that did happen, and we actually went 
back to Kirk Menendez, sanctions, and declines in oil 
purchases, and we forced every bank to hold on to Iran's money. 
Then, we have 4 months for them to develop a nuclear weapon at 
a time when we are enforcing the sanctions that have certainly 
not crippled them.
    I realize we have lower oil prices, which has had an effect 
on them. But there are no riots in the streets of Tehran today.
    So you gentlemen have done a great job of telling us why 
this deal has problems. And I have 0.0 seconds to be fair to 
you and let you tell me why the course of action available to 
Congress--I think the President may not have boxed in Iran and 
blocked every avenue they have to a nuclear weapon, but he has 
has boxed in Congress and maybe cut off every avenue we have to 
an alternative foreign policy.
    Mr. Dubowitz. Congressman Sherman, I actually laid out 
three scenarios that respond to your question.
    Chairman Royce. They may be able to do that in writing.
    Mr. Sherman. In writing, and I know we will be talking by 
phone, et cetera. And I thought that this would still leave a 
minute for you, but obviously----
    Mr. Dubowitz. Financial institutions are not going back 
into Iran until they know who the next President is, and the 
vote of disapproval will absolutely deter them from going back 
in, because they will be afraid that if the next President of 
the United States comes in on a vote of disapproval with the 
political wind in her back, or his back, that they might find 
themselves on the wrong end of an enforcement action.
    So it is exactly the message to the international community 
that says don't go back into Iran right now, which will be the 
most powerful deterrent to basically enforce the sanctions over 
the next 18 months.
    Chairman Royce. Mr. Ted Yoho of Florida.
    Mr. Yoho. Thank you, Mr. Chairman.
    Gentlemen, appreciate your being here. Ambassador Joseph, I 
listened to your five flaws; I agree. Your four 
recommendations; I agree. Libyan example; I agree.
    Mr. Dubowitz, your three rejections of the deal and your 
three flaws I thought were all pretty accurate.
    Mr. Goldenberg, I agree with you on this agreement is not 
perfect. I agree. And I look back at the North Korean NPT with 
a peaceful program, and I look back when Japan and South Korea 
were at the table, and they wanted a deal because their vested 
interests are right there in the area.
    I find it interesting that partners in the Middle East 
weren't at the table. Israel wasn't at the table. The Saudis 
weren't at the table. And they don't want the deal, but yet we 
are going ahead with the deal.
    You said we should give the IAEA more money to hire more 
inspectors, but we can't get inspectors to look at the stuff 
they need to now. And I think it has been brought out, the 
Parchin military area where we know they more than likely 
detonated a nuclear trigger device, and then I look at--you 
know, and I think Mr. Issa brought it out very well, along with 
Mr. Brooks. Has Iran lied, cheated, deceived the U.S./U.N., 
broken security, or U.N. resolutions, other nations, have they 
lied and cheated to the IAEA? And I think we are all in 
agreement with that.
    With the economic sanctions in place, in fact they are so 
tough that Iran was starving. You know, people were having all 
these hard times. But while they were doing that, they were 
funding Hezbollah, they were funding Hamas, they have an access 
through Venezuela, through South America. They funded terrorism 
around the world.
    Again, as Mr. Issa said, you think of the Khobar Towers, 90 
percent of the IEDs that killed or wounded 70 percent of our 
soldiers in Iraq and Afghanistan were funded by Iran during 
economic sanctions. Their spread of terrorism around the world 
has grown in strength with sanctions. And then when we release 
sanctions somewhat, they are only supposed to get a few 
billion, but it turned out to be around $14 billion or more, 
they go and help Assad.
    And you look at their history, and their history pretty 
much predicts the future of a country like that. When I look at 
them sponsoring the assassination attempt of the Saudi 
Ambassador on our homeland, would it be safe to say, especially 
when their leaders have been for years, since you were a baby 1 
year of age, until the signing of this agreement, or the 
agreement, saying ``Death to America,'' ``Death to Israel,'' 
would you consider them maybe an enemy of our state?
    Mr. Goldenberg. Congressman, the Soviet Union was also an 
enemy of our state. Iran is an enemy of our state, but we did 
negotiate----
    Mr. Yoho. I am sorry. They are an enemy of our state.
    Mr. Goldenberg. Yes. And the Soviet Union was also.
    Mr. Yoho. That is what I wanted to hear. Will this 
negotiation, Ambassador Joseph, is it going to strengthen Iran?
    Mr. Joseph. Most definitely it will strengthen the regime.
    Mr. Yoho. Mr. Dubowitz?
    Mr. Dubowitz. Yes.
    Mr. Yoho. Mr. Goldenberg?
    Mr. Goldenberg. In some areas, and constrain it in others.
    Mr. Yoho. With the release of the money, it will strengthen 
it. So we are strengthening somebody that has shouted death 
``Death to America,'' as you stated an enemy of the state, and 
you are a senior fellow/director, Middle East Security Program, 
Center of New American Security, right? Center for New American 
Security.
    President Obama said that this deal will make the Middle 
East, the U.S., and the world safer. Is that correct?
    Mr. Goldenberg. Yes.
    Mr. Yoho. If that is true, why are everybody telling us 
that we need to bolster our eastern missile defense system, our 
western missile defense system, our Alaskan and everywhere 
else?
    Mr. Goldenberg. I wouldn't necessarily agree with that. I 
do think we need to take a lot of other steps in the region.
    Mr. Yoho. I think we are being naive here to a level of 
non-comparable analysis, from a guy that has only been here for 
2\1/2\ years. I don't see this as a good deal. I have only been 
here 2\1/2\ years. I don't see this as a good deal, and I think 
we should walk away from the table.
    Senator Lieberman was here last week. We should run away 
from the table and put the sanctions back on now, because as 
Mr. Dubowitz says, snapback is a fallacy; it will never work. 
Once this goes down--and I hope all of Congress rejects this 
deal. When you have the Saudi and nobody else, and Israel 
saying, ``Please don't do this deal,'' I think we should 
listen. And if we are this lone superpower at the negotiating 
table, and I see that what we didn't get and what we gave up, I 
think it is time for us to walk away.
    And I yield back.
    Chairman Royce. The gentleman from Fairfax County, 
Virginia, Gerry Connolly.
    Mr. Connolly. Thank you, Mr. Chairman. Wow. I have got to 
say, I guess I don't have the luxury of having made up my mind 
yet. Listening to my friend from California, Mr. Brad Sherman, 
apparently it is all simple and clear-cut. It is real simple.
    We can make up our minds before the ink is dry on the 
treaty, and we even see all the details, or go to a briefing. 
If we want to delineate this as just another political contest 
up here, then we have to be willing to say U.S. national 
security interest be damned, Middle East security interest be 
damned, because policy trumps everything.
    Now, that is not everybody up here, but it is too many up 
here. And I would like to see hearings that actually are used 
to actually explore and illuminate, learn more, question, 
probe. So I hope these hearings will--that will be the purpose 
they serve, not to simply reinforce already arrived at a priori 
convictions, because of some other commitment we have made to 
some intellectual pursuit that I don't share.
    I have heard it is not perfect.
    Chairman Royce. Will the gentleman yield?
    Mr. Connolly. On your time.
    Chairman Royce. We will have Secretary Kerry here----
    Mr. Connolly. I know.
    Chairman Royce [continuing]. Next week, along with the 
Secretary of Energy and the Secretary of the Treasury on this, 
just to----
    Mr. Connolly. And I exempt--if I can have my time--but I 
exempt the chairman from what I just said, because actually at 
your opening query you brought up something that bothers me, 
too, which is the non-identified inspection areas and that 24-
day period. I think that is a problem, and I think it has to be 
addressed.
    But that has nothing to do with the preconceived notion of 
whether this is good or bad or hurt Israel or hurt U.S. or the 
Saudis like it. The notion that people say, ``Death to 
America'' in Iran, apparently we should never talk to them, we 
should never have an agreement that, unrelated to that, 
actually takes the nuclear equation or is proposed to take the 
nuclear equation off the table.
    What is U.S. interest? That is what we ought to be talking 
about, and we ought to be hard-nosed about it. And we are all 
going to come to different conclusions, but I really hope we 
recalibrate and try to diffuse the politics here. I know that 
is an impossible request.
    But you were trying to point out and got interrupted, Mr. 
Goldenberg, but, I mean, in the height of the Cold War, the 
Soviet Union, the last time I checked--I am old enough to 
remember--was dedicated to the proposition of destroying us and 
capitalism. Does my memory fail me? I know you were young, 
but----
    Mr. Goldenberg. That is correct, sir.
    Mr. Connolly. Yes. Did we have any kind of negotiations 
with the Soviet Union?
    Mr. Goldenberg. Sir, all the time, on all----
    Mr. Connolly. All the time. Did we, including Ronald 
Reagan, put the nuclear question front and center, irrespective 
of, not in ignorance of, not to the exclusion of, human rights?
    Mr. Goldenberg. Absolutely.
    Mr. Connolly. Jewish immigration.
    Mr. Goldenberg. Yes.
    Mr. Connolly. Soviet misbehavior in other parts of the 
world.
    Mr. Goldenberg. Yes.
    Mr. Connolly. Including arming elements that were fighting 
us.
    Mr. Goldenberg. Yes.
    Mr. Connolly. Ah.
    Mr. Dubowitz. Yes. But three treaties that were signed----
    Mr. Connolly. Mr. Dubowitz, I have not asked you a 
question.
    Mr. Dubowitz. Okay. I will wait for your----
    Mr. Connolly. This is my time, and I want to give Mr. 
Goldenberg an opportunity, uninterrupted, to answer my 
question.
    The proposition, Mr. Goldenberg, is made we should just 
walk away. It is simple. There are no consequences. In fact, I 
dare say the consequences are highly likely to be positive. Is 
there at all a conceivable idea that they might be negative?
    Mr. Goldenberg. I think that is the most likely scenario. 
We are going to--Iran will resume its nuclear weapons----
    Mr. Connolly. If you were putting a probability, just humor 
me here, but what is the probability you would put on the 
Russians and the Chinese coming back to the table if we did 
that?
    Mr. Goldenberg. Three percent.
    Mr. Connolly. Now, I heard a conversation with Mrs. Frankel 
about U.S. credibility, and I heard Mr. Joseph and Mr. 
Dubowitz, Ambassador Joseph say, ``Well, credibility wouldn't 
be that damaged.'' I want to explore with you for a minute the 
idea that the United States of America, the world's sole 
surviving superpower, that negotiated and led the negotiations, 
and led the sanctions, and brought around for the first time in 
35 years to the table to talk to us, and wrenched out 
concessions, would actually renounce its own treaty, the 
consequences would be relatively mild.
    Our credibility wouldn't be hurt. What do you think the 
consequences would be next time we said we want to lead a 
negotiation on Subject X with anybody?
    Mr. Goldenberg. I think probably it would be very difficult 
for us to be----
    Mr. Connolly. Very difficult. So actually the damage to our 
credibility could be quite consequential, not minimal.
    Mr. Goldenberg. I agree with that, sir.
    Mr. Connolly. And, furthermore, final thing, we have heard 
scenarios the Iranians will have to deal with it, and, you 
know, they have got other problems if we walk away and renounce 
this deal.
    What kind of probability might we put, though, on the 
opposite, that what this leads to, if we say no, is the hard 
liners are strengthened in Iran, the very group we don't want 
to strengthen, and they accelerate the nuclear program because 
now they have nothing left to lose.
    Mr. Goldenberg. Congressman, I think if we walk away, 
Rouhani and the entire pragmatic faction of Iran is probably 
done politically, period, end stop.
    Mr. Connolly. And what is likely to happen to the nuclear 
program under that scenario, do you think?
    Mr. Goldenberg. Accelerate.
    Mr. Connolly. It accelerates. And I only submit that we had 
to explore that, too. We had to explore, as Mr. Dubowitz and 
Ambassador Joseph and Senator Lieberman pointed out last week, 
there are consequences for going forward with this agreement. 
We have to weigh them very carefully.
    But we cannot minimize or ignore the consequences of no. We 
cannot pretend that the alternative isn't fraught with danger 
as well. And we have got to weigh carefully that balance. Which 
risks are we, as Members of Congress, willing to take on behalf 
of our country? And for me that is the central question. I 
haven't made up my mind yet, but I hope that is what we pursue 
in subsequent hearings.
    With that, I yield back, Mr. Chairman. Thank you.
    Chairman Royce. Thank you.
    Colonel Scott Perry from Pennsylvania.
    Mr. Perry. Thank you, Mr. Chairman.
    My good friend from Virginia, I don't know what you had for 
breakfast this morning, but I would like to on occasion have 
some of whatever makes you delusional about American 
credibility and what might have been damaged in the last 2 
years over this discussion and this----
    Mr. Connolly. Mr. Chairman? As a matter of personal 
privilege----
    Chairman Royce. You are out of time.
    Mr. Connolly [continuing]. It is inappropriate for a Member 
of Congress to characterize another member at a hearing or on 
the floor of the House as delusional. I ask my friend to 
withdraw and retract the remark. It is inappropriate as a 
member of a Congress.
    Mr. Perry. I will indeed withdraw my remark.
    Mr. Connolly. I thank my friend.
    Chairman Royce. And let us get on to the question of 
questioning the witnesses here, shall we?
    Mr. Perry. Mr. Chairman, absolutely, although I would say 
the question of credibility--I must return to that essentially. 
We don't have any credibility left on the planet in foreign 
relations as far as I am concerned, basically due completely to 
this administration and the things they have done now and 
throughout their time in office.
    That having been said, Ambassador, do we consider Iran a 
rational actor as a state?
    Mr. Joseph. Sir, I think they are rational. I think they 
are a rogue state, but they are rational.
    Mr. Perry. They are rational. Indeed, is North Korea 
rational or irrational or non-rational?
    Mr. Joseph. Sometimes I look at North Korea's behavior and 
I think they are more rational than we are with regard to our 
North Korea policy.
    Mr. Perry. How about with regard to Iran?
    Mr. Joseph. As I said, I think Iran is--the Iranian leaders 
are rational, but rationality may be something that differs 
between Tehran and Washington.
    Mr. Perry. Willing to give up the lives of many of their 
countrymen--Iran, that is--and North Korea for that matter, but 
in this case Iran, for quest of their mission so to speak?
    Mr. Joseph. Absolutely. They have demonstrated that over 
and over for decades now.
    Mr. Perry. Right. Decades. Decades. Millions--not millions, 
hundreds of thousands, maybe millions dead at the cost of this 
quest.
    And it says in the agreement that this agreement, if you--I 
am sure you have read it. I have now twice. Built on mutual 
respect in the near--in the beginning of the thing. Built on 
mutual respect. And respect is earned over a period of time 
based on your actions, correct? I mean, that is my--would be 
one of my definitions or character----
    Mr. Joseph. Well, real respect is. I think this is more of 
diplomatic nicety. When you have, you know, thousands of 
Iranians chanting ``Death to America'' in the streets within 
hours after the signing of the agreement, I wonder about the 
respect of----
    Mr. Perry. I mean, I guess what I am getting to is the 
agreement isn't necessarily based--not necessarily, it is not 
at all based in factual actions that can be documented. It is 
based on the hope that things will change.
    Mr. Joseph. I think it is----
    Mr. Perry. From our----
    Mr. Joseph [continuing]. Triumph of hope over experience. 
Absolutely.
    Mr. Perry. So, as I read it, sanctions relief happens early 
next year under this agreement, things all happening 
essentially at the same time. Sanctions relief happens almost 
immediately. That is our part of the deal, right? We relieve 
you of the sanctions that are imposed upon you, and they agree 
to minimize their enrichment, move and store some of the 
enrichment capability, and then work on redesigning facilities, 
not dismantle facilities.
    And they are not redesigned at that time. There is a road 
map, as it says in the agreement, for redesign. Is that--and 
get rid of some of their stockpile that we know of, not 
including stockpiles and materials provided by the Russians. Is 
that pretty much it?
    Mr. Joseph. That is pretty much it.
    Mr. Perry. Yes. So they get essentially--essentially, we 
give everything away, like everything we have, that is the 
sanctions. That is what we have, right? We have sanctions.
    Mr. Joseph. It is even worse than that. It is more than 
sanctions. It is the release of their assets, which----
    Mr. Perry. Right.
    Mr. Joseph [continuing]. You know, is the signing bonus.
    Mr. Perry. Right. The 150 billion, right, or thereabouts. 
Not 13 billion or 14 billion or million, 150 billion, in an 
economy 300 billion or 400 billion. So it is almost half of 
their economy they get one fell swoop.
    Mr. Joseph. I think the 12 billion to 20 billion was what 
they got when they signed the first agreement----
    Mr. Perry. Right.
    Mr. Joseph [continuing]. In November 2013.
    Mr. Perry. So you just look at the scale of the deal, like 
if you were buying a car, would this be a good deal. And it 
seems like you are not getting much car for a lot of money, 
right? I mean, in that----
    Mr. Joseph. This is a bad deal.
    Mr. Perry. Yes. Let me ask you, why is Iran a member of the 
Commission? If we feel so badly about them and they are bad, 
they are a rogue actor, not--why are they even a part--if a 
convict is sentenced, do we allow the convict to then sit on 
the jury? Is that what has happened here?
    Mr. Joseph. Sir, I think this is just another example of 
breaking every rule of good negotiations.
    Mr. Perry. Has it happened ever before?
    Mr. Joseph. Well, there have been joint commissions that 
were set up in the arms control world with the Soviet Union, 
but I think here you have clearly a rogue state.
    Mr. Perry. The 24 days where we dispute something, that is 
only the beginning, right? Isn't there another 35 days 
minimum----
    Mr. Joseph. Yes.
    Mr. Perry [continuing]. To fight that out? Minimum.
    Mr. Joseph. Minimum.
    Mr. Perry. Minimum 35 days. This might go on interminably 
while we have no idea what they are doing. And it is all 
predicated on IAEA inspections.
    Last question, Mr. Chairman. Thanks for your indulgence. 
Are there going to be Americans inspecting?
    Mr. Joseph. No.
    Mr. Perry. Great.
    Thank you, Mr. Chairman.
    Chairman Royce. Judge Ted Poe of Texas.
    Mr. Poe. Thank you, Mr. Chairman.
    Thank you all for being here. Are any of you aware of so-
called secret side deals that we are just now learning about? 
We will just go down the row. Mr. Joseph?
    Mr. Joseph. I am aware of what I have read in the newspaper 
about the secret arrangements with the IAEA in Iran on the 
question of Parchin and the potential military dimensions, the 
12 activities that Iran has engaged in, all related to 
weaponization.
    Mr. Poe. Okay. Have you seen this so-called secret deal?
    Mr. Joseph. No, I have not.
    Mr. Dubowitz. I am aware of letters that Secretary Kerry 
has provided to the Europeans and the Chinese assuring them 
that we will not snapback sanctions against their companies, 
and, therefore, enabling them to invest tens of billions of 
dollars back into the economy, deals which will be 
grandfathered in in a snapback scenario.
    Mr. Poe. So you know about the secret deals.
    Mr. Dubowitz. It hasn't--my understanding is it is not 
classified, but certainly it is not being publicly discussed in 
the way it should be.
    Mr. Poe. All right.
    Mr. Goldenberg. Congressman, I would say it is probably 
wise to--you know, just from conversations with the 
administration and friends in there, my understanding is you 
should really ask them.
    My understanding is that these are usually agreements that 
traditionally are signed with IAEA and a lot of different cases 
that are kept between the IAEA bilaterally, but that the 
administration should absolutely be here briefing you, and I 
hope they do, on all of the details of that agreement.
    But they don't even necessarily have the paper, and it has 
a lot to do with the fact that, you know, there are certain 
elements that you don't want to get out publicly, period, about 
nuclear weaponization and whatnot. But honestly, Congressman, I 
would really suggest talking to the administration about it.
    Mr. Poe. Susan Rice says that there are some deals that she 
will let us--she says she will let us know about.
    Moving on to something else, crude oil sanction lifting. 
Now, I am from Texas, and I am confused in the sense that we 
are going to lift the sanctions on Iran exporting their crude 
oil, but the U.S. Government is still not going to lift the 
sanctions on the United States exporting our crude oil, or the 
prohibition against exporting crude oil.
    It seems like, you know, in Texas we want the same deal the 
Iranians are getting, and we will even promise not to develop 
nuclear weapons. But the Iranians exporting crude oil, will we 
be buying that crude oil? I am just opening that up. So is the 
United States going to end up buying Iranian crude oil that is 
lifted from the sanctions? Any of you.
    Mr. Dubowitz. Well, I mean, oil is a global market. Iranian 
medium and heavy sour crude will be sold by oil traders around 
the world. It is entirely possible that U.S. refineries end up 
buying Iranian crude, unless there is some way and there is 
some forensic process to figure out whether that molecule of 
oil that is actually coming into the United States came from 
Iran or came from some other country that sells an equivalent 
heavy or medium sour blend.
    Mr. Goldenberg. Although, Congressman----
    Mr. Poe. Just a second. I only have a few minutes.
    I understand that. It is a world market. Crude oil is a 
world market. They put more crude oil on the market, and then 
whoever buys it buys it. It seems ironic to me.
    The other question I have, is their cash. There has been a 
discussion about how much money they are going to actually get, 
from 50 billion to 150 billion. Hey, billions is billions to 
me. However much money they get, what is to prohibit them from 
using the cash they have to continue to be the world's largest 
state sponsor of terrorism? What is to keep them from sending 
money to their terrorist groups throughout the world to cause 
havoc? Is there any prohibition in this agreement that 
prohibits that from occurring?
    Mr. Joseph. There is no prohibition at all on that. And in 
fact, if you look at what the Supreme Leader said following 
this negotiation, they are going to continue to support their 
allies, like Assad, and their friends, like Hezbollah and 
Hamas. They are going to continue to do this, and they are 
going to continue to foment instability throughout the region. 
They say they are going to do that with----
    Mr. Poe. Okay. Last question. No, excuse me. I have to ask 
the questions. Is not the best hope and policy of the United 
States--should it not be that there should be a regime change 
in Iran, a peaceful regime change, free elections, and that 
would be the best, safest hope for the world and Iran is if 
they had a regime change? Yes or no.
    Mr. Dubowitz. This deal makes no sense unless that happens, 
because you would never want to give the same hard men of Iran 
and the Revolutionary Guards an industrial sized nuclear 
program with near zero breakout and an I.C.B.M. So President 
Obama is betting the future of American national security on 
exactly that scenario, a peaceful transformation.
    And if he gets it wrong, then the same hard men who rule 
Iran will have an industrial sized program, near zero breakout, 
an I.C.B.M. And not 100 billion, but hundreds and hundreds and 
hundreds of billions of dollars that Iranians will get over the 
lifetime of this agreement.
    Mr. Joseph. This deal makes it more difficult for a regime 
change. This deal strengthens the current regime, gives it more 
tools to repress its people. And because it has a nuclear 
option, it will feel less threatened by outside intervention 
and more able to continue to repress its own people.
    Mr. Poe. I yield back.
    Chairman Royce. We are going to go to the gentleman from 
Jackson County, North Carolina, Mark Meadows.
    Mr. Meadows. Thank you, Mr. Chairman.
    Thank each of you for your time today. I guess I am the 
last one up before closing remarks. And so I have watched all 
of you. Mr. Goldenberg, would you say that, based on your non-
verbal and your verbal cues, that you are the smartest one at 
that table?
    Mr. Goldenberg. No.
    Mr. Meadows. Okay. So if I have questions about the deal, 
then who at that table should I ask, other than you? If you are 
not the smartest one, who should I ask?
    Mr. Goldenberg. I think you should ask all three of us. I 
think three different people can have different perspectives on 
a very difficult problem.
    Mr. Meadows. Okay. Well, let me--because I have some 
sincere questions, and it sounds like you have talked to the 
administration on this deal. Is that correct?
    Mr. Goldenberg. I do talk to them occasionally.
    Mr. Meadows. Occasionally. All right. So let me ask you, as 
it relates to ballistic missiles and arms sales, that is a 5- 
and 8-year, or vice versa, 8- and 5-year, respectively, kind of 
caveat. Is that correct?
    Mr. Goldenberg. Yes.
    Mr. Meadows. Okay. Well, so explain to me how the second 
part of that paragraph says ``or until the date on which the 
IAEA submits a report confirming a broader conclusion, 
whichever is earlier.''
    Mr. Goldenberg. I think----
    Mr. Meadows. So could we have ballistic and arms sales a 
year from now?
    Mr. Goldenberg. If Iran goes above and--far above and 
beyond what we expect and is committed to the deal in this 
agreement, maybe the IAEA comes to that conclusion. I am highly 
skeptical.
    Mr. Meadows. All right. So your testimony--let me--because 
this is headline-making right here. Your testimony is ballistic 
arms sales and ballistic missile sales and arms sales could 
happen a year from now if Iran goes above and beyond, and the 
IAEA, not Congress, not the U.N., but the IAEA confirms that. 
Is that your testimony?
    Mr. Goldenberg. I think it is not physically possible for 
Iran to do everything it would need to do to----
    Mr. Meadows. But your testimony was--so you are changing 
your testimony.
    Mr. Goldenberg. I guess I phrased it differently, but I 
would say that the likelihood of that is infinitesimal.
    Mr. Meadows. All right. So what about 2 years?
    Mr. Goldenberg. Still incredibly low.
    Mr. Meadows. Three years?
    Mr. Goldenberg. I think--honestly, I think that I don't 
speak for the administration, and you should ask them about 
this.
    Mr. Meadows. No. You have been talking to them. You have 
been speaking for a lot of people this morning. I have been 
listening to you. So here is my question. Do the 8-year and 5-
year notes and timeframes really mean anything with that last 
little sentence? Because it could happen earlier. Isn't that 
correct? You are the smartest guy in the room now.
    Mr. Goldenberg. I think----
    Mr. Meadows. Could it happen earlier?
    Mr. Goldenberg. I am happy----
    Mr. Meadows. I am not asking for probabilities. Yes or no. 
Could it happen earlier? Yes or no.
    Mr. Goldenberg. Could.
    Mr. Meadows. Okay. Yes. So let me ask you another question, 
because I am confused. I have heard Secretary Kerry sitting 
almost exactly in your same place saying climate change is the 
number one national security threat that we face. That is what 
I have heard. Would you agree with that?
    Mr. Goldenberg. Congressman, I am not an expert on climate 
change.
    Mr. Meadows. All right. So let me ask you a different 
question. Why do you think the sale of coal to Iran from the 
United States on a President who has talked about climate 
change and has a war on coal, why do you think they would put 
the sale of coal in this particular deal and selling to Iran? 
Does that not seem odd to you?
    Mr. Goldenberg. I am not familiar with that provision or 
precisely how you----
    Mr. Meadows. Well, I thought you read the deal.
    Mr. Goldenberg. I absolutely read the deal.
    Mr. Meadows. And so you didn't see that in there. I have.
    Mr. Goldenberg. Okay.
    Mr. Meadows. Do you trust me on that?
    Mr. Goldenberg. Sure.
    Mr. Meadows. Okay. All right. So let me ask you one last 
question. Your testimony here today is that the Middle East and 
Israel will be safer under this deal. Is that correct? Let me--
because there was a question here by Mr. Yoho and you said they 
will be safer.
    Mr. Goldenberg. I believe so.
    Mr. Meadows. Okay. So let me ask you this question. 
Reconcile this for me. If it is safer, why did this 
administration immediately send someone to Israel to give them 
and augment their military capability when we haven't done that 
before? We immediately set out to help them. So if it was going 
to be safer, why are we giving them more money for military is 
Israel?
    Mr. Goldenberg. Because we are partners. And they obviously 
have anxieties about the agreement. I don't think people can 
disagree about what the agreement actually says, or people can 
disagree about whether it is a good agreement or not. 
Obviously, we have disagreements with some of the political 
leadership in Israel. There is also a lot of this----
    Mr. Meadows. So we are going to give----
    Mr. Goldenberg [continuing]. Security establishment in 
Israel that if you talk to them has a much more nuanced 
perspective, and some of them are anxious, some of them are 
supportive, some of them are opposed, and so I think that it 
is--one thing we can do is, when you do something that a friend 
of yours clearly is not happy about it, you go try to find 
other ways to reassure them and let them know we are still 
there are for you for----
    Mr. Meadows. Well, I thought you might say that, but the 
only problem is Ashton Carter said that that is not the reason 
he is doing it. There is quote out there that says, no, he is 
not trying to appease them. So it is either one or the other.
    And with that, I will yield back, Mr. Chairman.
    Chairman Royce. I thank the members. We thank the 
witnesses. We appreciate their appearance here this morning. 
These are critical issues that have been raised, and we are 
going to have an opportunity next week to further explore those 
issues with our Secretary of State, Secretary of the Treasury, 
and Secretary of Energy.
    So, for now, this hearing is adjourned. Thank you.
    [Whereupon, at 11:28 a.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
         

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
